<html>
<title> - EXPLORING NATIVE AMERICAN SUBSISTENCE RIGHTS AND INTERNATIONAL TREATIES</title>
<body><pre>[Senate Hearing 115-570]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 115-570
 
EXPLORING NATIVE AMERICAN SUBSISTENCE RIGHTS AND INTERNATIONAL TREATIES

=======================================================================

                                HEARING

                               before the

     SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, AND COAST GUARD

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 31, 2017

                               __________

    Printed for the use of the Committee on Commerce, Science, and Transportation
    
    
                             
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
 

                Available online: http://www.govinfo.gov
                
                
                
                
                
                  U.S. GOVERNMENT PUBLISHING OFFICE
                   
35-754 PDF                 WASHINGTON : 2019                      
                
                
                
                
       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
TED CRUZ, Texas                      AMY KLOBUCHAR, Minnesota
DEB FISCHER, Nebraska                RICHARD BLUMENTHAL, Connecticut
JERRY MORAN, Kansas                  BRIAN SCHATZ, Hawaii
DAN SULLIVAN, Alaska                 EDWARD MARKEY, Massachusetts
DEAN HELLER, Nevada                  CORY BOOKER, New Jersey
JAMES INHOFE, Oklahoma               TOM UDALL, New Mexico
MIKE LEE, Utah                       GARY PETERS, Michigan
RON JOHNSON, Wisconsin               TAMMY BALDWIN, Wisconsin
SHELLEY MOORE CAPITO, West Virginia  TAMMY DUCKWORTH, Illinois
CORY GARDNER, Colorado               MAGGIE HASSAN, New Hampshire
TODD YOUNG, Indiana                  CATHERINE CORTEZ MASTO, Nevada

                       Nick Rossi, Staff Director
                 Adrian Arnakis, Deputy Staff Director
                    Jason Van Beek, General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
                      Renae Black, Senior Counsel
                                 ------                                

            SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, 
                            AND COAST GUARD

DAN SULLIVAN, Alaska, Chairman       GARY PETERS, Michigan, Ranking
ROGER F. WICKER, Mississippi         MARIA CANTWELL, Washington
DEB FISCHER, Nebraska                RICHARD BLUMENTHAL, Connecticut
JAMES INHOFE, Oklahoma               BRIAN SCHATZ, Hawaii
MIKE LEE, Utah                       EDWARD MARKEY, Massachusetts
RON JOHNSON, Wisconsin               CORY BOOKER, New Jersey
CORY GARDNER, Colorado               TAMMY BALDWIN, Wisconsin
TODD YOUNG, Indiana

                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 31, 2017.................................     1
Statement of Senator Sullivan....................................     1
Statement of Senator Peters......................................     2
    Prepared statement...........................................     4
    Article dated October 30, 2017 from The Daily Mining Gazette 
      entitled ``Stamp sand research project wins national 
      competition''..............................................    42
    Letter dated October 30, 2017 to Ms. Tinka Hyde from Brian 
      Locke, Chair, Council of Lake Communities..................    43

                               Witnesses

John Hopson, Jr., Chairman, Alaska Eskimo Whaling Commission.....     6
    Prepared statement...........................................     7
Hon. Harry Brower, Mayor, North Slope Borough....................    24
    Prepared statement...........................................    25
Dr. Robert Suydam, Senior Wildlife Biologist, North Slope Borough    29
    Prepared statement...........................................    30
Chris Swartz, President, The Keweenaw Bay Indian Community.......    33
    Prepared statement...........................................    35

                                Appendix

Response to writtens question submitted by Hon. Gary Peters to:
    Dr. Robert Suydam............................................    55
    Chris Swartz.................................................    56


EXPLORING NATIVE AMERICAN SUBSISTENCE RIGHTS AND INTERNATIONAL TREATIES

                              ----------                              


                       TUESDAY, OCTOBER 31, 2017

                               U.S. Senate,
Subcommittee on Oceans, Atmosphere, Fisheries, and 
                                       Coast Guard,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:30 p.m. in 
room 253, Russell Senate Office Building, Hon. Dan Sullivan, 
Chairman of the Subcommittee, presiding.
    Present: Senators Sullivan [presiding] and Peters.

            OPENING STATEMENT OF HON. DAN SULLIVAN, 
                    U.S. SENATOR FROM ALASKA

    Senator Sullivan. The Subcommittee on Oceans, Atmosphere, 
Fisheries, and the Coast Guard will now come to order. Good 
afternoon.
    Under the title of ``Exploring Native American Subsistence 
Rights and International Treaties,'' this hearing is going to 
discuss two issues of importance to Ranking Member Peters and 
myself, respectively.
    I just had the opportunity to deliver a floor address and 
talked about many things that make our Nation so great--the 
diversity of cultures, the diversity of interests, and the 
diversity of states that really strengthens the United States. 
There is a long list of things that my colleagues know that 
make Alaska special--Michigan, too, of course, for my good 
friend Senator Peters. But the topic and the focus of today's 
hearing in many ways may top that list.
    That is why I am so pleased to host this hearing and have 
so many Alaska Native leaders present at Congress in the 
audience and to testify at this hearing today.
    The Alaskans of the North Slope and Bering Strait regions 
live in one of the most extreme environments on Earth, 
inaccessible by road and frozen in by sea for much of the year. 
Grocery stores are scarce. And what commercially available 
goods they do have often come at astronomical prices.
    More times than I can count, I have mentioned in this 
Committee that Alaska is the superpower of seafood. Almost 60 
percent of all seafood harvested in the United States comes 
from the waters of Alaska. But this far north in Alaska, even 
many wild fisheries are unavailable to my constituents.
    Aboriginal subsistence whaling, therefore, is critical to 
the food security and cultural fabric of Alaska's North Slope 
and Bering Strait communities. The whaling captains of various 
whaling crews in the villages are revered community leaders, 
apprenticing for decades before earning the honor of leading a 
crew being a whaling captain. Marrying the modern and 
traditional worlds in whaling hunts, these whaling crews go to 
great lengths to put traditional food on the table and, very 
importantly, to keep their cultures alive and healthy.
    The aboriginal subsistence harvest in Alaska is sustainable 
and noncommercial. The number of bowhead whales are 
consistently increasing and may be at levels not seen since the 
dawn of the 20th century.
    Dr. Suydam, who serves as the Vice Chair of the 
International Whaling Commission Scientific Committee, will 
discuss this further.
    Worldwide whale stocks are managed through the 
International Whaling Commission, the IWC, a group of 88 
countries that have ratified the International Convention for 
the Regulation of Whaling, combining traditional knowledge, 
much of which is gleaned in Alaska and on the North Slope, and 
modern science, resulting in the AEWC's gold standard for 
subsistence whaling at the IWC. In fact, the International 
Whaling Commission has consistently certified that the 
biological status of our bowheads is sustainable and healthy.
    In 2018, the aboriginal subsistence quota for these Alaskan 
communities is up for renewal at the International Whaling 
Commission meeting in Brazil. This will be a very important 
meeting. As the State Department and NOAA formally represent 
the interests of the United States at the IWC, they will be 
flanked by members of the Alaska Eskimo Whaling Commission, who 
are the most capable Americans to speak to the importance of 
whale conservation, as their communities' way of life and food 
security depend on it.
    I want to thank again our witnesses for being here today, 
many of whom who have traveled thousands of miles from 
literally the top of the world to be here.
    And I now recognize Ranking Member Peters for any opening 
statements that he has.
    And then I look forward to introducing and welcoming our 
witnesses, many of whom are close friends of mine.
    Senator Peters.

                STATEMENT OF HON. GARY PETERS, 
                   U.S. SENATOR FROM MICHIGAN

    Senator Peters. Thank you, Mr. Chairman.
    Good afternoon to our witnesses who have traveled some very 
long distances to be with us here today, and we appreciate all 
of your efforts.
    I am looking forward to taking a close look at Native 
American subsistence rights to make sure we continue to protect 
those rights under international treaties.
    First, I would like to take this opportunity to welcome 
Chris Swartz, President of the Keweenaw Bay Indian Community, 
or KBIC. I had the honor of meeting with President Swartz just 
last August when I sat down with him and members of the tribal 
council just a mile from Keweenaw Bay on the shores of Lake 
Superior. While I was there, the KBIC gifted me some wild rice 
and maple syrup that were harvested locally, which, along with 
fish, are important traditional foods within the tribal 
community.
    Chris has shared with me the work of KBIC and the Great 
Lakes Indian Fish and Wildlife Commission to raise the issue of 
legacy pollution left behind by decades of mining and 
manufacturing, a legacy that includes stamp sands. I am eager 
for this hearing as a chance to learn more and to raise the 
profile of this environmental issue and its need for a long-
term solution.
    The interaction of international treaties with those that 
guarantee rights to our Native American communities can pose 
several complications. This hearing serves as an opportunity to 
focus on the most basic of rights and make sure that we honor 
and respect those subsistence rights granted to our Native 
American communities. These issues face communities from Alaska 
to the Great Lakes with various overlapping treaties, and it is 
important to figure out what we can do to address issues 
impacting subsistence practices.
    Subsistence rights, whether for whales or fish or other 
natural resources, are important rights to protect. The 
definition of subsistence is to maintain or support oneself at 
the minimum level, fulfilling a basic need--not for excess, not 
for profit.
    Our Native American communities have always been and 
continue to be stewards of the land. They have traditionally 
always forged a sustainable relationship with the environment. 
Through thousands of years of living on and with the land, 
Native American communities have a trove of information and an 
incredible understanding of our environment and the 
interrelations of our ecosystems.
    In the Great Lakes, communities like the Keweenaw Bay 
Indian Community have been fishing lake trout and whitefish for 
millennia. They know intimately what parts of the lake are 
important for spawning sites, for juvenile fish to grow and 
thrive. And I am sure they know exactly where to find the big 
one along the shores of Lake Superior as well.
    Lake Superior is a marvel of nature, a freshwater inland 
ocean, the largest lake by surface area in the world. It is the 
cleanest, coldest, and deepest of the Great Lakes with enough 
water to cover all of North America and South America with one 
foot of freshwater.
    Despite Lake Superior's size, it has not proven invincible. 
Today, we all hear about the impacts of human extraction along 
the lakeshores and how it has affected the ability of the lake 
to provide subsistence to all communities, both tribal and 
nontribal, and beyond its shores.
    Michigan's Upper Peninsula, or as we call it in Michigan, 
the UP, has a history of mining and copper production that 
built up communities throughout the northern reaches of the 
state. Historic mining from before the establishment of the EPA 
has left a host of legacy impacts across the UP. One of those 
is literally miles upon miles of stamp sands, a waste created 
from crushing rock to extract copper ore.
    I have seen these sands firsthand, and the extent of the 
shoreline they cover is immense. But they are more than an 
eyesore. They contain trace amounts of heavy metals that harm 
the most sensitive parts of Lake Superior's environment and 
food web. Unfortunately, these sands do not remain in one 
place, but they are moving into one of the most important 
habitats for fish in the entire Lake Superior area, the Buffalo 
Reef in Grand Traverse Bay. As the sands erode, they smother 
productive spawning sites and habitat for juvenile fish.
    The impact on fisheries is horrific, but it is critical to 
recognize that these eroding sands are also disrupting and 
damaging the beautiful beaches and shores that make Lake 
Superior a pure Michigan destination. The legacy pollution is 
something that every Keweenaw residence has to deal with.
    Our tribal communities were some of the first to recognize 
the problem caused by stamp sands and raised the profile of 
this issue. The impacts to the Lake Superior ecosystem range 
from local communities, both tribal and nontribal, to 
international, as the lake is shared between the United States 
and Canada.
    We need long-term solutions. This past summer, dredging to 
remove the sands most imminently impacting Grand Traverse Bay 
is providing a temporary fix and giving us 3 to 7 years to 
figure out what to do. But we need to do much more, and we will 
explore that in this hearing.
    Mr. Chairman, I look forward to this hearing and once again 
thank you for hosting it.
    (The prepared statement of Senator Peters follows:]

   Prepared Statement of Hon. Gary Peters, U.S. Senator from Michigan
    Thank you, Mr. Chairman, and good afternoon to our witnesses who 
have traveled some long distances to be here today. I am looking 
forward to taking a close look at Native American subsistence rights to 
make sure we continue to protect those rights under international 
treaties.
    First, I would like to take this opportunity to welcome Chris 
Swartz, President of the Keweenaw Bay Indian Community, of KBIC. I have 
had the honor of meeting President Swartz multiple times, including 
last August when I sat down with him and members of the tribal council 
just a mile from Keweenaw Bay in Lake Superior. While I was there, the 
KBIC gifted me wild rice and maple syrup that were harvested locally, 
which, along with fish, are important traditional foods in the tribal 
community.
    Chris has shared with me the work of the KBIC and the Great Lakes 
Indian Fish and Wildlife Commission to raise the issue of legacy 
pollution left behind by decades of mining and manufacturing, a legacy 
that includes stamp sands. I am eager for this hearing as a chance to 
learn more and raise the profile of this environmental issue and its 
need for a long-term solution.
    The interaction of international treaties with those that guarantee 
rights to our Native American Communities can pose several 
complications. This hearing serves as an opportunity to focus on the 
most basic of rights and make sure we honor and respect those 
subsistence rights granted to our Native American Communities. These 
issues face communities from Alaska to the Great Lakes with various 
overlapping treaties, and it is important to figure out what we can do 
to address issues impacting subsistence practices.
    Subsistence rights--whether for whales or fish or other natural 
resources--are important rights to protect. The definition of 
subsistence is to ``maintain or support oneself at a minimum level''--
fulfilling a basic need--not for excess, not for profit.
    Our Native American communities have always been and continue to be 
stewards of the land. They have traditionally always forged a 
sustainable relationship with the environment. Through thousands of 
years of living on and with the land, Native American communities have 
a trove of information and an incredible understanding of our 
environment and the inter-relatedness of our ecosystems.
    In the Great Lakes, communities like the Keweenaw Bay Indian 
Community have been fishing Lake Trout and Whitefish for millennia. 
They know intimately what parts of the lake are important for spawning 
sites, for juvenile fish to grow and thrive, and I am sure they know 
where to find the ``big one'' along the shores of Lake Superior.
    Lake Superior is a marvel of nature, a freshwater inland ocean, the 
largest lake by surface area in the world. It is the cleanest, coldest, 
and deepest of the Great Lakes with enough water to cover all of North 
and South America with 1 foot of freshwater.
    Despite Lake Superior's size, it has not proven invincible. Today 
we will hear about the impacts of human extraction along the Lake's 
shores and how it has affected the ability of the Lake to provide 
sustenance to all communities both tribal and non-tribal along and 
beyond its shores.
    Michigan's Upper Peninsula--or as we call it in Michigan, the UP--
has a history of mining and copper production that built up communities 
throughout the northern reaches of the state. Historic mining, from 
before the establishment of the EPA, has left a host of legacy impacts 
across the UP. One of these is literally miles upon miles of stamp 
sands, the waste created from crushing rock to extract valuable copper 
ore.
    I have seen these sands firsthand, and the extent of shoreline they 
cover is immense, but they are more than an eyesore. They contain trace 
amounts of heavy metals that harm the most sensitive parts of Lake 
Superior's environment and food web.
    Unfortunately, these sands do not remain in one place but are 
moving into one of the most important habitats for fish in all of Lake 
Superior, the Buffalo Reef in Grand Traverse Bay. As the sands erode, 
they smother productive spawning areas and habitat for juvenile fish.
    The impact to fisheries is horrific, but it is critical to 
recognize that these eroding sands are also disrupting and damaging the 
beautiful beaches and shores that make Lake Superior a ``Pure 
Michigan'' destination. The legacy pollution is something that every 
Keweenaw resident has to live with.
    Our tribal communities were some of the first to recognize the 
problem caused by stamps sands and raise the profile of this issue. The 
impacts to the Lake Superior ecosystem range from the local communities 
both tribal and non-tribal to international as the Lake is shared 
between the United States and Canada.
    We need long-term solutions. This past summer dredging to remove 
the sands most imminently impacting Grand Traverse Bay is providing a 
temporary fix and giving us 3 to 7 years to figure out what to do.
    As the process to remediate the sands moves forward, everyone needs 
to be at the table. Having the tribes here today to share more about 
stamp sands with us is a first step in providing their unique first-
hand knowledge into a long-term fix and ensuring that they will be 
included as partners in working towards a solution.
    And truly, everyone in Michigan deserves a say in finding long term 
solutions. Just this past spring, three Lake Linden high schoolers came 
and visited my office to share their efforts to help find a solution to 
the stamp sands problems.
    They tested how different plant species grow on stamp sands. Having 
plants growing on the sands would help stabilize the sands and reduce 
erosion.
    Mr Chairman, I ask that an article describing their work from 
Houghton, Michigan's Daily Mining Gazette along with a letter from the 
council of Lake Committees supporting the stamp sands remediation be 
entered in the record.
    We need multi-pronged solutions to solve the stamp sands problems, 
and all Michiganders--tribal and non-tribal, young and old--have a 
stake in the outcome.
    We need to learn more about this issue to be effective, and I thank 
you, Mr. Chairmen for calling this hearing today for all of us learn 
about this critical issue for the Keweenaw, the state of Michigan, and 
the Great Lakes basin in addition to learning about the whaling issues 
affecting Alaska's Eskimo communities.

    Senator Sullivan. I want to thank you, Senator Peters, for 
your cooperation and the good work that we have been doing 
together here. I also want to thank my colleagues for being 
here at this hearing today. These are very, very important 
members of both of our communities. And your being here shows a 
lot of respect. I know a lot of Members are really busy, but 
just showing up at the outset really means a lot to me and my 
constituents.
    I know, Senator Peters, he talked about the big one in Lake 
Superior. I think we had a big one off the North Slope, which 
was maybe a 60-foot bowhead this summer, so fairly big on the 
big-one scale.
    Senator Peters. A little bigger than we have.
    Senator Sullivan. Yes. But I do want to thank the 
witnesses. I cannot emphasize enough how revered our whaling 
captains are in their communities and throughout Alaska. We 
have a number in the audience and at the table.
    I will begin by introducing all four of our witnesses 
today: Mr. John Hopson, who is the Chairman of the Alaska 
Eskimo Whaling Commission; the Honorable Harry Brower, Mayor of 
the North Slope Borough; Dr. Robert Suydam, the Senior Wildlife 
Biologist from the North Slope Borough; and as Senator Peters 
mentioned, Mr. Chris Swartz, the President of the Keweenaw Bay 
Indian Community, KBIC.
    Each of you will have 5 minutes to deliver your oral 
statement. A longer written statement from each of you will be 
included in the record.
    We will begin with you, Mr. Hopson. You have 5 minutes. You 
are recognized, sir. Thank you for being here.

           STATEMENT OF JOHN HOPSON, JR., CHAIRMAN, 
                ALASKA ESKIMO WHALING COMMISSION

    Mr. Hopson. Thank you, Mr. Chairman, respected Senators. 
Good afternoon. My name is John Hopson Jr. I am a husband, a 
father, and a whaling captain from Wainwright, Alaska. I am 
also the Chairman of the Alaska Eskimo Whaling Commission.
    Thank you for giving us the opportunity to be here to 
testify on our bowhead whale subsistence quota. Our people have 
hunted the bowhead whale for thousands of years. Today, the 
AEWC's 11 villages harvest on average 41 bowhead whales every 
year for subsistence. This is less than one-fourth of 1 percent 
of the current population size.
    Based on our observation and knowledge of the whales, we 
know that this harvest is sustainable, and the IWC Scientific 
Committee supports that and confirms this.
    The bowhead whale is essential for our cultural and 
nutritional survival. After a successful harvest, multiple 
generations come together from our communities to celebrate the 
whales that have given themselves to us and to share the 
bounty.
    The whale harvest is a community effort. The community 
supports us as whaling captains, and they rely on us to be 
successful to bring in the whales to share.
    Our people have always regulated our subsistence harvesting 
activities. But since 1977, we have been under the 
international regulation after the IWC decided that we should 
not be able to take our whales.
    Since then, we have proven that our bowhead whale stock is 
healthy and growing, and we have met other IWC demands. We have 
proven that we need the whales. We have modernized our weapons 
to improve efficiency and animal welfare in our harvest.
    This year, one of our young hunters was brutally attacked 
on Facebook for taking his first whale. They even threatened 
his life.
    The IWC has become a highly political body. It is now 
fragmented into voting blocs with some countries that oppose 
whaling. To set our quota, it takes a 75 percent majority vote, 
including countries that oppose whaling. In 2002, the U.S. 
could not get that majority, and we lost our quota, again, due 
to the IWC politics. We were very fortunate that the U.S. was 
able to get our quota back at a special meeting.
    Neither the IWC convention nor the Whaling Convention Act 
covers a situation where a country cannot get the IWC to act on 
a subsistence quota.
    The next IWC meeting is in September 2018. Our quota will 
expire at the end of December, and our southern villages will 
have to hunt the first of January. If the IWC doesn't act to 
reset our quota, the U.S. will have only three and a half 
months to try to get our quota back.
    The amendment to the Whaling Convention Act we are asking 
you to support will allow the U.S. to deal with a situation 
where the IWC does not reset our quota and it expires.
    I want to be very clear that we have a very good working 
relationship with the U.S. delegation and that we are committed 
to our role at the IWC. Next April, the AEWC and North Slope 
Borough will host a meeting of the IWC aboriginal subsistence 
whaling working group with a meeting in Barrow.
    We are not asking to get out of the IWC. Under this 
amendment, quotas can only be set on the basis of the IWC 
Scientific Committee's advice, and it requires us to continue 
working with the IWC to try to get a positive vote on our 
quota.
    Thank you, and I am happy to try to answer any questions 
you might have, Mr. Chairman.
    [The prepared statement of Mr. Hopson follows:]

           Prepared Statement of John Hopson, Jr., Chairman, 
                    Alaska Eskimo Whaling Commission
Executive Summary
    The bowhead whale subsistence harvest, conducted for millennia, is 
critical to the food security and nutritional and cultural health of 
thousands of American citizens living in northern and western Alaska. 
The Scientific Committee of the International Whaling Commission (IWC) 
confirms the harvest as sustainable and Alaska Native subsistence need 
for bowhead whales is well documented. The IWC subsistence harvest 
quota for bowhead whales expires in December 2018. A successful effort 
to block the 75 percent majority vote needed to renew the IWC quota 
could render this harvest illegal under international law.
    The bowhead subsistence quota was blocked for political reasons in 
2002. The IWC ended its meeting without acting on the U.S./AEWC bowhead 
whale subsistence quota request. The quota was later restored at an 
intersessional meeting. Greenland subsistence whaling quotas were not 
set in 2012, again for political reasons, but their quota was not 
restored. Greenland hunters were forced to gather food without a quota 
and have been branded as international outlaws.
    The IWC will hold its 2018 meeting in September. If the IWC fails 
to reset the bowhead whale subsistence quota, the U.S. will have only 
three and a half months to attempt reinstatement, since the AEWC's 
villages in the Bering Strait Region hunt throughout the winter, taking 
whales as early as the first week of January.
    Failing this, through no fault of ours, we will be branded as 
outlaws, compelled to feed our families without an IWC quota in place.
    In northern Alaska, members of the Native community wait anxiously 
for each quota outcome at the IWC. This international legal threat, if 
it occurs, will be devastating, creating confusion, panic, and the fear 
of hunger in our remote, isolated communities.
    The potential for the IWC to fail to act on a quota request was not 
contemplated by the drafters of the International Convention for the 
Regulation of Whaling (Convention) nor by Congress in passing the 
Whaling Convention Act (Act, 16 U.S. Code Subchapter II). We seek a 
clarifying amendment to the Act to address this oversight.
Testimony
    Good afternoon, my name is John Hopson, Jr., I am a husband and 
father, and a whaling captain in the bowhead whale subsistence harvest. 
I was born and have lived all my life in Wainwright, Alaska. Among 
other duties within my community, I serve as Wainwright's Commissioner 
to the Alaska Eskimo Whaling Commission (AEWC), and as Chairman of the 
AEWC.
    Today I would like to give you some background on the Alaska Eskimo 
Whaling Commission, and on the statute and international treaty that 
bring us here today.
The Alaska Eskimo Whaling Commission
    The Alaska Eskimo Whaling Commission (AEWC) is a not-for-profit 
entity, formed by the whaling captains of 11 United States communities 
located along the northern coast of Alaska, from the Bering Strait 
Region to the U.S. border with Canada. There is no road system in 
northern Alaska. Our remote villages are accessible only by air or sea. 
Village supplies arrive by barge or airplane, making store-bought 
supplies and food items extremely expensive in our communities, where 
there are few employment opportunities. Therefore, we depend on hunting 
to feed our families, with the ocean as our most important source of 
food and natural supplies.
    Bowhead whales, which can range up to more than 50 feet in length, 
averaging about one ton/foot in weight, are our most important resource 
and the bowhead whale harvest is the heart and soul of our subsistence 
culture.
    In 1977, the IWC banned our subsistence harvest. Neither the IWC 
nor the U.S. Government consulted with our people before taking this 
action. We learned about this decision when Federal marshals showed up 
in our villages and told our elders that we could no longer conduct our 
subsistence harvest.
    The IWC's decision was based on faulty research which led people to 
believe that the Western Arctic bowhead whale stock, from which we 
hunt, was severely depleted and declining toward extinction. Our 
whaling captains, who have spent countless generations observing the 
whales, knew that the stock was healthy and growing rapidly, after 
having been heavily hunted and depleted during the time of Yankee 
commercial whaling in the late 1800s and early 1900s.
    The IWC's action was devastating to our communities and led to 
widespread hunger, because there is no means of replacing either the 
quantity or quality of the food that the whale provides. So, the 
whaling captains of our villages joined together to form the AEWC, to 
work with the U.S. Government and the IWC to address both scientific 
understanding and harvest management concerns related to the bowhead 
whale and our subsistence harvest.
    We are very fortunate that the North Slope Borough was able to step 
in and develop a research program that, still today, provides reliable 
science on our bowhead whale stock.
    Today, 40 years after the Federal marshals came to our villages, 
conservation organizations from around the world refer to the AEWC's 
management practices as the gold standard in wildlife conservation. The 
bowhead whale science program is recognized around the world as state-
of-the-art.
    The AEWC manages the bowhead whale subsistence harvest, pursuant to 
tribal delegation, under a Cooperative Agreement with NOAA, originally 
entered in 1980, under Section 112 of the Marine Mammal Protection Act. 
The AEWC's Management Plan, approved by NOAA, contains the rules that 
govern the conduct of our harvest. Under the Cooperative Agreement and 
Management Plan, the AEWC reports seasonal harvest results to NOAA 
Fisheries and consults with NOAA on questions and decisions related to 
management of the harvest.
    The North Slope Borough, in cooperation with the AEWC's whaling 
captains and the National Marine Fisheries Service's Marine Mammal 
Laboratory, conducts research on the size and health of the Western 
Arctic bowhead whale stock, reporting research results annually to the 
IWC's Scientific Committee. Researchers conduct a census of the 
population every five to ten years and submit results and revised 
population estimates to the Scientific Committee for scientific peer 
review. Mayor Brower and Dr. Suydam will speak more to these topics.
The Whaling Convention Act of 1949 Must Be Amended to Address a 
        Drafting Flaw in the International Convention for the 
        Regulation of Whaling
    The U.S. is an original signatory of the 1946 Convention, 
establishing the IWC. Domestically, NOAA implements the Convention and 
decisions of the IWC through the Whaling Convention Act and its 
regulations.
    The IWC was founded to manage commercial whale hunts. An IWC 
moratorium on the commercial harvest of all whale stocks went into 
effect in 1986. Since that time, the IWC has managed the world's four 
Aboriginal subsistence harvests of large whales, including the bowhead 
whale. Under the Convention, the IWC manages harvests through the 
setting of quotas on whale stocks.\1\ The setting of a quota requires 
an amendment to the legally binding Schedule of the IWC and the 
Schedule can only be amended through an affirmative vote of 75 percent 
of the voting members. Thus it is not very difficult for just a few 
countries to block a quota even if the scientific evidence shows that a 
harvest is sustainable.
---------------------------------------------------------------------------
    \1\ Harvests are also subject to population research and animal 
welfare requirements. In addition, Aboriginal subsistence harvests are 
subject to proof that the hunting communities need the food.
---------------------------------------------------------------------------
    Article V of the Convention provides a process by which IWC members 
can object to decisions of the IWC. However, the Convention does not 
provide a legal remedy for situations in which the IWC fails to act 
affirmatively to amend its Schedule, nor does the Act provide a remedy 
in this instance. Certainly, such an event would not have been 
anticipated by the Convention's original drafting parties, who came 
together for the express purpose of coordinating their commercial 
whaling activities. However, a successful effort to block a 75 percent 
majority vote on the bowhead whale subsistence quota could deny Alaska 
Natives legal access to the critical nutritional and cultural resource 
of the bowhead whale.
This is the issue we seek your assistance in addressing.
    The prevailing interpretation of the Convention holds that 
Aboriginal subsistence quotas, which are set forth in the Schedule in 
multi-year blocks, expire at the end of the final year listed for each 
quota block. Thus, a failure of the IWC to amend the Schedule to 
establish a new quota block, arguably, results in the expiration of the 
harvest quota. In this case, any ongoing harvests by subsistence 
communities, who depend on whaling for survival, are considered 
illegal, regardless of the reason for the IWC's failure to re-establish 
the quota.
    Therefore, a harvest that is determined to be sustainable by the 
IWC Scientific Committee and that is critical to human survival, can be 
rendered illegal by a successful effort to block the 75 percent 
majority vote needed to renew an existing quota.
    This is not a remote possibility. Today, powerful members of the 
international NGO community wield significant influence at the IWC. 
Some of these organizations oppose all forms of whaling, including 
Native subsistence harvests. Some use this opposition as a basis for 
funding and membership drives.
    The U.S. is a leader and strong advocate for the IWC's efforts to 
protect whale stocks from over-exploitation, to reduce by-catch, and to 
promote healthy marine habitat. Simultaneously, the U.S. works with the 
IWC's three other subsistence harvesting nations--Russia, Denmark/
Greenland, and St. Vincent and the Grenadines--in the effort to 
preserve the bowhead whale and other sustainable Aboriginal subsistence 
quotas at the IWC.
    The U.S. Delegation provides support for the AEWC in our effort to 
preserve the legal right of Alaska Natives to continue the sustainable 
bowhead whale harvest. However, the IWC has become fragmented into 
voting blocks. Thus, the U.S. must assemble a consensus or a sufficient 
majority to carry a vote to amend the Schedule, across voting blocks 
that include countries strongly opposed to the setting of any whaling 
quotas, including countries under the political influence of 
international anti-whaling organizations. The U.S.'s ability to succeed 
at this effort is increasingly less certain.
    In addition, IWC members from both pro-and anti-whaling factions at 
times oppose the bowhead quota for reasons entirely unrelated to their 
views on whaling or to the proven health of the whale stock, the need 
of our communities for food, or the AEWC's and U.S.'s highly successful 
management of the harvest and science program. Rather, IWC members at 
times oppose the bowhead subsistence quota to influence U.S. views on 
other issues. In the spring of 2002, the IWC ended its meeting without 
setting a bowhead harvest quota, due to a political dispute between the 
U.S. and other countries, unrelated to the Alaska subsistence harvest. 
As a result, and without justification, we again faced a moratorium on 
our crucial bowhead whale harvest, despite sound science and 
international regard for the AEWC's stellar management practices.
    While our bowhead whale subsistence quota ultimately was restored 
at an IWC intersessional meeting in 2002, the threat to our quota was 
renewed at the IWC's 2007 meeting and preserving our legal ability to 
harvest this resource is an ongoing political and strategic challenge 
for the U.S.
    To further illustrate the mounting intensity of opposition to 
Native food gathering, this year a young man from Gambell, Alaska was 
subjected to vicious attacks and even death threats through Facebook 
posts, following the landing of a whale. Chris Apassingok is 16 years 
old. He, his family, and his community were elated when he landed his 
first whale, enabling him to ``feed the people.'' Their joy turned to 
fear for his safety and mental health as the malicious posts started 
pouring into his Facebook account, instigated by Paul Watson of Sea 
Shepard.
    In October 2012, the last meeting at which the IWC considered 
Aboriginal subsistence quotas, anti-whaling interests blocked action on 
a request by Greenland for a minor increase in its subsistence harvest 
numbers. As in 2002, with the bowhead quota, members of the IWC 
attempted to address the Greenland situation through an intersessional 
meeting, hosted by the U.S. However, enough countries failed to attend 
the meeting that a quorum could not be established. As a result, in 
2013, Greenland subsistence hunters were compelled to harvest food for 
their families and communities without an IWC quota. For this, they 
have been branded as international outlaws among anti-whaling forces 
and dogged at the IWC.
The Need for Action Is Urgent
    The IWC now holds its biannual meetings in the fall. In 2018, the 
meeting will be held in September. The AEWC's villages in the Bering 
Strait Region conduct their harvests throughout the winter, sometimes 
as early as the first week of January. Therefore, if the IWC fails to 
reset the bowhead whale subsistence quota in September, the U.S. will 
have only three and a half months to try to rally a quorum of IWC 
members to an intersessional meeting. Failing this, our whaling 
captains would be forced to hunt as outlaws to feed our families.
    In northern Alaska, members of the Native community wait anxiously 
for each quota outcome at the IWC. This legal threat, if instigated, 
would be devastating, creating confusion, panic, and the fear of hunger 
in our remote, isolated communities.
    We sincerely hope that our Government will stand by our communities 
and close this loophole that could allow foreign interests to 
criminalize food gathering by our remote, northern Alaskan Native 
communities.
    To tell you a little bit about who we are and what we do:
The Bowhead Whale Subsistence Harvest
    Our communities have harvested the bowhead whale for food for 
thousands of years. Our bowhead whale subsistence harvest remains 
central to the food security and the nutritional and cultural well-
being of our villages and of communities throughout northern Alaska 
today. This resource is so important that it literally is the center 
piece of our culture. In English, we must speak of whaling and hunting 
or harvesting the whale, but our belief is that the whale gives itself 
so that the people may continue to live. For those of us who are 
fortunate enough to be whaling captains, there is no greater honor than 
to have a whale present itself, and then to be able to share that whale 
with our families, our community, and with Native Alaskan families and 
communities throughout our region.
    The IWC's Aboriginal subsistence quota for bowhead whales is 67 
strikes per year, to land 56 whales, with an additional annual 
carryover of 15 unused strikes from previous years. The IWC sets a 
strike and landed quota because sea, ice, and weather conditions, 
especially in the spring, prevent us from landing 100 percent of the 
whales we strike.
    This level of quota was set by the IWC 20 years ago. Under a U.S.-
Russian bilateral agreement, seven of the 67 strikes go to Chuktoka 
hunters each year. Since the IWC agreed to this harvest level, the 
estimated size of the Western Arctic stock of bowhead whales has 
doubled, and its annual growth rate is estimated at 3.7 percent. The 
subsistence harvest is less than one-fourth of one percent (< 0.25 
percent) of the current population estimate, which may be near 21,000.
    We land, on average, 41 whales per year. Depending on its size, 
each whale provides us with 12-20 tons of highly nutritious food, for 
an annual average of about 500 to more than 800 tons of food each year. 
There are no substitutes for the quantity or nutritional quality of 
this subsistence food resource. Store-bought food is extremely 
expensive in our villages, where jobs are scarce; few families could 
survive on store-bought food alone. From a broader perspective, our 
local food gathering has virtually no carbon footprint, compared with 
the carbon emissions that would be caused by food shipments that would 
need to travel thousands of miles to our remote villages.
    Our spring hunting is done primarily from wood framed canoes, or 
umiaqs, covered in seal or walrus skins. With the retreat of sea ice, 
however, some of our villages must conduct the spring harvest from 
motorized skiffs, previously used only for harvesting during the fall 
open water season. My village is one of the spring hunting villages 
that has had to learn to hunt from motorized skiffs. Whatever boat we 
use, we take the whale with a hand-held darting gun, secure it to our 
boats by hand and tow it to the ice-edge or shore. If we have a stable 
shore-fast ice platform, we pull the whale onto the ice by hand.
    Our communities' need for the bowhead whale is well documented and 
social scientists are now beginning to document our practices of 
sharing the whale and other marine resources, not only within our 
villages, but throughout Alaska, even to Anchorage \2\. They refer to 
our practices as a mixed cash-subsistence economy. Those of us who have 
paying jobs work to bring in cash so that we can buy hunting equipment 
to hunt the resources we need to make sure that our communities and 
others who have need are fed. In this way, we leverage the cash income 
that is available to us into a much greater quantity of food than we 
could purchase with that income.
---------------------------------------------------------------------------
    \2\ BurnSilver S, Magdanz J, Stotts R, Berman M, Kofinas G (2016), 
Are mixed economies persistent or transitional? Evidence using social 
networks from arctic Alaska. American Anthropologist 118(1):121-129. 
See attached.
---------------------------------------------------------------------------
    For example, in my village, steak costs an average of approximately 
$25.00 per pound. Therefore, one ton of steak, if it could be flown in, 
would cost about $50,000. Purchasing enough steak to replace one whale 
would cost about $600,000--$1M. Purchasing steak to replace the annual 
whaling harvest would cost between $25M and $41M per year. By 
comparison, outfitting a crew and landing a whale can cost an average 
of about $40,000, if the captain must replace equipment. So, with one 
whale, a captain can feed hundreds of people for about 60 cents-$1.00 
per pound, with food that far exceeds steak in nutritional quality and 
provides for our spiritual and cultural well-being. The whaling 
captains in our 11 villages share the whales, that have given 
themselves to us, to feed thousands of people each year.
    Using these numbers helps to illustrate the fact that our ability 
to harvest the whale is essential to the food security of our northern 
Alaskan communities and to us as American citizens. However, numbers 
cannot illustrate what the whale is to us spiritually and emotionally. 
We are The People of the Ice Whale. Each year, our bowhead whale 
harvest reinforces the cultural identity of our people, as we practice 
our hunting and sharing traditions, and train our children in our 
cultural practices and traditions. Without the whale, the heart and 
soul of our culture would die.
The AEWC's and North Slope Borough's Work at the International Whaling 
        Commission
    The AEWC's Chair and Vice Chair, and our North Slope Borough Mayor 
and scientists attend all regular and many intersessional meetings of 
the IWC, often at our own expense. We actively participate with the 
U.S. Delegation in preparations for IWC meetings and actively 
participate in all relevant discussions within those meetings.
    In 2015, I participated in a special IWC Workshop, held in 
Maniitsoq, Greenland, on Aboriginal Subsistence Whaling. Next spring 
the AEWC, the North Slope Borough, and NOAA will host a second meeting, 
in Barrow, on Aboriginal subsistence issues, in preparation for the 
fall, 2018 IWC meeting.
    Our scientists have conducted groundbreaking research on the 
bowhead whale population, and are leading the effort at the Scientific 
Committee to develop a new, science-based management procedure for 
Aboriginal harvests. Our scientists and their work are so highly 
respected at the IWC that Dr. Suydam has been elected Vice Chair of the 
IWC Scientific Committee and will ascend to Chairman of that very 
highly regarded peer review body in 2018. He will be the second IWC 
Chair from our ranks. Dr. Judy Zeh, who conducted groundbreaking 
statistical work on the bowhead whale census was Chair of the 
Scientific Committee during its 2000-2002 meetings. She continues to 
participate in the Committee.
    In short, the AEWC and North Slope Borough are committed to our 
role in bowhead whale conservation, the ongoing development of sound 
management practices within the IWC, and our continued participation in 
the work of the IWC.
The AEWC's Conservation Work Beyond the IWC
    Beyond research and our management duties, the AEWC's mandate is, 
``to safeguard the bowhead whale and its habitat and to support the 
aboriginal subsistence whale harvest and traditional culture of its 
member communities.'' Therefore, when offshore oil and gas development 
came to our waters in the 1980s, the AEWC worked with Congress to amend 
the Marine Mammal Protection Act to provide support for our efforts to 
ensure that the development would not harm the whale, its habitat, or 
our harvest opportunities. An article describing this ongoing and 
highly successful work is attached to this testimony.
    In more recent years, as sea ice recedes and we see increasing 
vessel traffic in our waters, the AEWC, working with the U.S. Coast 
Guard, was a leader in the effort to form the Arctic Waterways Safety 
Committee, the harbor safety committee established to develop 
guidelines for the management of vessel traffic in U.S. waters from the 
Bering Strait Region, north. This Committee now meets twice yearly. 
Through it we are working with other marine mammal hunting 
organizations, vessel operators from industrial and commercial 
concerns, including tourism, and with marine researchers to develop a 
Waterways Safety Plan for the Arctic.
    Anyone familiar with the AEWC and our work knows that as whaling 
captains we take very seriously our responsibilities: to feed our 
people, to provide leadership in our communities, and to serve as 
leaders in the conservation of the bowhead whale resource and the 
preservation of our traditional subsistence culture.
    Thank you for allowing me to speak to you today and I am happy to 
try to answer any questions you might have about the AEWC or our work 
at the IWC.
    Quyanakpak
                                 ______
                                 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                 
                               
                                 
    Senator Sullivan. Thank you, Mr. Hopson.
    Mayor Brower, 5 minutes. Thank you, sir. The floor is 
yours.

            STATEMENT OF HON. HARRY BROWER, MAYOR, 
                      NORTH SLOPE BOROUGH

    Mr. Brower. Thank you. Good afternoon. My name is Harry 
Brower. I am a whaling captain, a former Chair of the AEWC, and 
currently Mayor of the North Slope Borough. Thank you for 
giving us the opportunity to be here and give you testimony 
about our bowhead whale subsistence harvest and the 
International Whaling Commission quota.
    2017 marks 40 years since the IWC imposed its moratorium on 
our bowhead whale subsistence harvest. I was 18 at the time. In 
Barrow, we had been landing 15 to 18 whales every spring. These 
whales fed our entire community. The moratorium was lifted for 
subsistence whaling after the 1977 meeting.
    But in the beginning, we would only have five strikes for 
Barrow. The rest of our villages were only allowed one or two. 
If a whale was struck and lost due to ice or sea state, that 
whale was a loss to our community and could not be replaced 
because of the harsh quota regime we were under.
    The uncertainty we were thrown into caused terrible anxiety 
for our people, especially our elders. People were worried 
about how we were going to take care of our families. Some of 
our elders protested the way we were being treated. They were 
arrested and sent to jail.
    All of this happened because of a misunderstanding at the 
International Whaling Commission. Federal scientists were sent 
to Barrow to count the whales, but they did not know proper 
technique for observing the whales, so they determined that the 
population was declining.
    But if anyone had asked our whaling captains, they knew 
that our bowhead whaling stock was healthy and growing. The 
North Slope Borough hired our own scientists. Today, our 
research program is very highly respected throughout the world. 
The IWC's management of harvest is also very highly respected.
    And we have a successful weapons improvement program that I 
chair. We have modified our handheld darting gun to accommodate 
a new projectile loaded with a high-powered explosive, 
penthrite. This has increased the efficiency and the animal 
welfare in our hunt.
    Today, thanks to the hard work of the AEWC and the U.S. 
delegation, our IWC quota is at a level that meets our 
nutritional and subsistence needs, while other people and 
organizations are playing volatile games with IWC politics. 
They are using us as political pawns and threatening our quota 
whenever it comes up for renewal. Other people should not be 
able to use our critical nutritional and subsistence resources 
in a political game.
    This is why we ask for your support on this legislation 
before you.
    Thank you. I am happy to try to answer any of your 
questions, Mr. Chair. Thank you very much.
    [The prepared statement of Mr. Brower follows:]

            Prepared Statement of Hon. Harry Brower, Mayor, 
                     North Slope Borough of Alaska
Executive Summary
    2017 marks 40 years since the International Whaling Commission 
(IWC) imposed a moratorium on our bowhead whale subsistence harvest, 
based on faulty scientific research. Since then, the AEWC and North 
Slope Borough have proven the health of our bowhead whale stock, proven 
that our communities need the bowhead whale for nutritional and 
cultural survival, and have modernized our hand-held whaling equipment.
    The AEWC now is a leader among subsistence hunting groups at the 
IWC. Our scientists are leaders at the IWC Scientific Committee and in 
the development, testing, and application of the computer algorithm 
used to determine sustainability in ours and other subsistence 
harvests.
    We are committed to working with the IWC and we are not here to ask 
for relief from our IWC responsibilities. We ask only to clarify the 
language of the Whaling Convention Act, to ensure that we can feed our 
families legally until the U.S. and the AEWC can convince the IWC 
members to reinstate our subsistence quota, should the IWC fail to act 
on a quota request.
    Setting our subsistence quota requires a 75 percent majority of IWC 
members. The IWC Convention requires quotas to be based on scientific 
proof of sustainability, yet quota decisions at the IWC are driven by 
politics, not science. IWC members are fragmented into political blocs, 
some comprising countries that strongly oppose any whaling, even for 
subsistence. In the past, our subsistence quota has been taken hostage 
in efforts to influence the U.S. on other issues.
    This spring one of our young hunters took his first whale. He was 
brutally attacked on Facebook, including threats on his life, by anti-
whaling groups who have influence at the IWC.
    In 2002, without justification, the IWC ended its meeting with no 
decision on our bowhead quota. The U.S. had to organize an 
intersessional meeting to have our quota reinstated before our 2003 
harvests. In 2012, the IWC allowed Greenland's subsistence quotas to 
expire; new quotas weren't set until 2014. Greenland hunters were 
branded as international outlaws for continuing to feed their families. 
We fear that this could happen to us.
    The 2018 IWC meeting is in September. If the IWC fails to set our 
quota, the U.S. will have only 3\1/2\ months before our southern 
villages must begin hunting.
Testimony
    Good afternoon, my name is Harry Brower. I was born and have lived 
all my life in Barrow, Alaska. I am the Mayor of Alaska's North Slope 
Borough and a former Chairman of the Alaska Eskimo Whaling Commission 
(AEWC).
    I am a husband, father, whaling captain, and belong to a family 
with a long history of feeding the people of my community through our 
whaling practices. My grandfather, Charles Brower, was a Yankee whaler. 
My other ancestors go back to ancient times in the Arctic and ancient 
subsistence whalers. I have trained sons, grandsons, and nephews in our 
subsistence practices, and they will train the next generations.
    Among our people, whaling captains are responsible for feeding the 
people of our community from the subsistence harvest of the bowhead 
whale. With this honor and responsibility also comes the responsibility 
for leadership within the community and the preservation of the health 
of our bowhead whale population.
    We never harvest more animals, of any kind, than we need. We rely 
on traditional knowledge, our own observations, and on modern research 
methods to help us ensure that our subsistence harvests remain 
sustainable. For our bowhead whale harvest, we work very closely with 
our North Slope Borough scientists and rely on the state-of-the art 
analytical tools that they have helped to develop and that are now used 
by the IWC.
    The North Slope Borough is home to almost 10,000 people and about 
70 percent of us are Alaska Native Inupiat, who have called northern 
Alaska home for thousands of years. We have harvested the bowhead whale 
for as long as we have lived in the north. The seat of North Slope 
Borough government is Utqiagvik, or Barrow. When I look south from my 
office, I see miles of tundra, rivers, lakes, lagoons, and marsh. 
Looking north, I am separated from the North Pole by nothing but miles 
of ocean and sea ice. It is true that our temperatures are warming, but 
our environment is no less harsh.
    Aside from tundra, very little vegetation grows in the Arctic. To 
feed our families, we must hunt year-round. We harvest some terrestrial 
animals and birds. But the ocean is our garden. Our most important 
harvest times are the spring and fall, when our greatest resource, the 
bowhead whale, migrates past our villages. From a successful harvest, 
we feed our entire community and share with our families and neighbors 
throughout our region. The whale is central to our diet and culture, 
both within the North Slope Borough and in our neighboring communities.
    Sharing is also central to our culture. It is what has enabled our 
people to survive the extreme conditions of the Arctic for these many 
centuries. Those who have, share with those who do not. We trade 
resources among families, villages, and regions. We are self-sufficient 
and resilient people. We take care of each other, and we take care of 
our resources. We also are patriots who respect our government and the 
rule of law. Many of our young men and women serve in the military.
    When we were told of the IWC moratorium in 1977, I was still a boy, 
but I remember that time well. Because of the IWC ban, we were 
prohibited from taking the whales that we needed to feed our families. 
There simply wasn't enough to eat. There was terrible fear about what 
would happen to us. We couldn't understand how people from foreign 
countries, who had never been to the Arctic, could be allowed to take 
our food from us.
    Today, the AEWC and North Slope Borough are leaders in research and 
cooperative management at the IWC. But in 1977, the researchers who 
came to look for the whales didn't know the whales' behavior and 
reported that they could find only 600-2,000 whales. As hunters, we 
spend our lives observing the ecosystem and the animals in it. Our 
whaling captains knew that there were 6,000-8,000 whales and that the 
population was growing rapidly.
    The North Slope Borough hired our own scientists. My father, Harry 
Brower Sr., was a senior whaling captain at that time taught the 
scientists how to count the whales, by looking for them above and 
listening for them below the spring ice. Once they learned to do this, 
the scientists started to realize that our whaling captains' estimates 
of the population size were right and that they were correct in 
reporting that there were large numbers of calves being born each year. 
There still are.
    That was the beginning of our bowhead whale research program. We 
have our elder whaling captains and the North Slope Borough to thank 
for making this program possible.
    Today the North Slope Borough's Department of Wildlife Management 
runs an internationally acclaimed research program, monitoring our 
wildlife throughout the Arctic. Our scientists lead the United States' 
bowhead whale research effort, and work closely with scientists from 
NOAA to present research results at the annual meetings of the IWC 
Scientific Committee.
    As Mayor of the North Slope Borough, I am proud of our modern 
science facilities and research and analysis capabilities; researchers 
from universities and other facilities around the world travel to 
Barrow to work with our scientists and our hunters, and to conduct 
other arctic research. My father worked with the scientists throughout 
his life, helping them learn how to observe wildlife in the Arctic. I 
began working in the Department as a young man and grew up there, 
serving as Deputy Director before being elected North Slope Borough 
Mayor.
    I also have attended IWC meetings for more than 20 years. I watched 
our North Slope Borough scientists grow into leadership at the 
Scientific Committee. As you heard from Mr. Hopson's testimony, one of 
our North Slope Borough scientists has already served as the Chair of 
the IWC's Scientific Committee. Dr. Suydam is now the Vice Chair of 
that Committee and will become the Chair next May. This is a great 
honor for all of us. It is a testament to the quality of the people who 
work with us. Even more, it is a testament to the dedication the AEWC 
and the North Slope Borough have to delivering sound research that 
promotes international understanding of our bowhead whale.
    I also have had the honor of participating in the AEWC's rise in 
leadership at the IWC. Working with our U.S. Delegation, the AEWC 
helped to found the Aboriginal Subsistence Hunters' Caucus at the IWC, 
and chairs its meetings. We supported the U.S. in its efforts to form a 
caucus of the Aboriginal Subsistence Whaling Countries--United States, 
Russia, Denmark/Greenland, and St. Vincent and the Grenadines--and 
actively participate in those meetings. We supported the formation of 
and actively participate in the IWC's Aboriginal Subsistence Whaling 
Working Group, chaired by Dr. Mike Tillman, of the U.S.
    The AEWC continues to work tirelessly to improve understanding of 
Aboriginal subsistence whaling at the IWC, always pushing the IWC 
toward science and away from politics in its decision processes. Our 
current IWC project, in addition to the renewal of our bowhead whale 
subsistence quota, is working with the U.S. Delegation to encourage the 
IWC to establish a Joint Committee, of the Commission and the 
Scientific Committee, to oversee and advise on Aboriginal Subsistence 
issues. Such a committee already exists to oversee and advise on 
conservation issues, including habitat conservation.
    We believe that a joint Aboriginal subsistence oversight committee, 
including scientists and hunters, will provide an important opportunity 
to further facilitate the application of modern research and management 
technologies within the context of local observations and subsistence 
uses. All of this is aimed at continuing to improve our understanding 
of our bowhead whales and to ensure that our harvest remains 
sustainable for our future generations, even as the Arctic changes. We 
are excited by this idea and look forward to working with the U.S. and 
others on it at future meetings of the IWC.
    Throughout our northern Alaskan communities, and especially among 
our whaling captains, we realize how fortunate we are to have the 
resources of the North Slope Borough to provide scientists and the 
means necessary to make this research possible. The North Slope Borough 
also is the largest financial backer of the Alaska Eskimo Whaling 
Commission.
    We also are fortunate to have the wonderful working relationship 
that the AEWC and North Slope Borough have with NOAA, and we are very 
grateful for the annual grants the AEWC receives from NOAA to help 
support our research and the AEWC's management work. The AEWC works 
closely with the North Slope Borough and with NOAA to keep our research 
and management efforts well-coordinated.
    In addition to demonstrating that our harvest is sustainable, the 
IWC insists that we must prove that we ``need'' the whale. The AEWC and 
North Slope Borough have worked with Stephen Braund, a very highly 
respected anthropologist in Alaska, for more than 30 years, helping him 
document and regularly update his report on our need for the bowhead 
whale.
    Our resources, and especially the whale, also provide our identity. 
Throughout our communities, everyone participates together in the 
bowhead whale subsistence harvest. They either participate directly by 
working on a crew, or they participate indirectly by providing food, 
clothing, or cash for equipment and supplies to support a crew. And 
everyone receives the gift of the whale.
    This is what the whale is to us, a gift from the maker of all 
things and it must be treated with the greatest respect. When a whale 
gives itself to a crew, before securing it for towing, the captain 
offers a prayer of thanks for the whale. This prayer goes out on the 
VHF radio; everyone who is on the water or in town stops what they are 
doing to give thanks for the whale.
    When a whale is landed, residents throughout the community and even 
people from other villages come to help with dividing the whale. This 
is done very quickly and all shares are taken home to be stored 
immediately. The whaling captain and his wife take the largest share 
because we are responsible for feeding everyone in the community 
shortly after the hunt. The elders are fed first and anyone who happens 
to be in town is welcome to receive a meal at the whaling captain's 
house. It doesn't matter how long we have been out on the ice or the 
water hunting, we don't stop to sleep or even rest until everyone is 
fed and the whale that remains has been put away.
    This is a joyful time and no one complains or can feel annoyed or 
angry. Whatever disagreements we might have with each other, whaling 
brings us together and makes us one.
    Following a successful spring harvest, each whaling captain also 
hosts a Nalukataq, a community feast where we celebrate the harvest by 
sharing the whale with the community and all our out-of-town guests who 
come to join in the celebration. Children and the young join in, 
helping to distribute the food, and they are taught always to feed 
their elders first. We value the knowledge and wisdom of our elders who 
have been in this world longer than those of us who are younger, and we 
teach our children this respect from a very young age. For the 
Nalukataq, the captain takes the seal skins that covered his umiaq so 
that they can be used like a trampoline in our blanket toss. This is a 
very big celebration and a time of great joy in our villages.
    As whaling captains, we also hold feasts at Thanksgiving and 
Christmas and continue to share our portion of the whale throughout the 
year. We are honored to be able to do this for our community.
    Finally, it requires great skill to safely take a whale. As John 
indicated, we hunt from 6 to 8 man vessels, either umiaqs or motorized 
skiffs, and use hand-held weapons. The whales we bring in can be 40 to 
50 feet in length, and the ocean is unforgiving. While we are hunting, 
or towing a whale, seas can change quickly, ice can move, and wind and 
weather can deteriorate very rapidly.
    The whaling captain's greatest responsibility is the safety of his 
crew. Our goal, always, is to stay as close to shore as possible and to 
take the whale as quickly as we can.
    Through our work at the IWC, we met and now work with an 
internationally recognized Norwegian expert in the humane killing of 
large animals. With Dr. Egil Oen's help, in the 1980s, we began 
developing a projectile that fits our hand-held darting gun and is 
armed with a high-powered explosive capable of killing a 50-foot whale 
instantaneously. During the research and development phase of this new 
weapon, our Barrow whaling captains volunteered for the field trials 
needed to refine and finalize the design. Today, this new projectile is 
used throughout our villages to improve the efficiency of our harvest 
and to allow us to take the whale in the shortest possible time.
    I serve as the Chair of the AEWC's Weapons Improvement Committee. 
In addition to the improvement in our hand-held weapons, our Weapons 
Improvement Committee conducts regular training sessions so that we 
regularly improve the skills of our hunters. The more efficient and 
effective our hunters are, the safer we all can be when we are on the 
water.
    As whaling captains and leaders in our community, we take great 
pride in our accomplishments at the IWC. That work and our 
consultations with the IWC Scientific Committee and with our Norwegian 
colleague are now integral to our local harvest management practices. 
We anticipate these types of collaborations, through the IWC, 
continuing for generations to come.
    It is very sad to us that there are individuals and organizations 
so focused on their own political agendas that they would thoughtlessly 
take away our food, the foundation of our culture, and the legal right 
to our subsistence harvest, to pursue their own ends.
    As unfortunate as this is, we know that it is a reality we must 
face. That is why we are here today. As long as the whales are healthy, 
our bowhead whale subsistence harvest is not optional for us. Like 
everyone, we must eat. We must feed our children, our elders, and our 
communities.
    If politics causes the IWC to end a meeting without renewing our 
subsistence quota, like Greenland we may be forced to hunt without IWC 
sanction. Our harvest level will be limited by IWC Scientific Committee 
recommendations and we will continue working with the U.S. and the IWC 
until the IWC resets the quota.
    We ask only that our hunters not be forced into a situation where 
they could be subjected to threats or accusations that they are outlaws 
for feeding their families. For this, we need your help. We hope you 
will support our proposed amendments to the Whaling Convention Act.
    Thank you for hearing us today, and I am happy to try to answer any 
questions you might have about my testimony, our work at the IWC, or 
our bowhead whale subsistence harvest.
    Quyanak.

    Senator Sullivan. Thank you, Mr. Mayor, for that very 
powerful testimony. I look forward to having a good discussion 
when we get to the Q&A portion.
    Dr. Suydam.

  STATEMENT OF DR. ROBERT SUYDAM, SENIOR WILDLIFE BIOLOGIST, 
                      NORTH SLOPE BOROUGH

    Dr. Suydam. Good afternoon, Senators. It is a privilege to 
speak before you today. Thank you for giving me some of your 
time.
    My name is Robert Suydam. I have lived and worked in Barrow 
since 1990. I am a Senior Wildlife Biologist with the North 
Slope Borough Department of Wildlife Management. The North 
Slope Borough is the equivalent of a county government that 
encompasses the entire North Slope of Alaska. Our department 
includes seven Ph.D.-level biologists and veterinarians, and a 
similar number of subsistence hunters.
    As you can imagine, it is unique for a municipal government 
to have its own research branch and a research science program. 
It shows, though, the commitment of the Inupiat of Northern 
Alaska for ensuring that high-quality data and traditional 
knowledge are available for making informed management 
decisions needed for sustainable harvest.
    I have a Ph.D. from the University of Washington--go Dawgs, 
right?--and I have a Master's from the University of Alaska 
Fairbanks. I am currently the Vice Chair of the International 
Whaling Commission's Scientific Committee, and I will take over 
the Chair's position in May 2018. I also serve on the U.S. 
Marine Mammal Commission's Committee of Scientific Advisers.
    Today, I would like to provide you with information about 
the population status of bowhead whales that occur in the 
Bering, the Chukchi, and the Beaufort Seas adjacent to Alaska.
    The bowhead whale population is doing exceedingly well. It 
is healthy and growing. Our last count in 2011 showed that it 
contained almost 17,000 whales. When combined with past counts, 
the data show that the bowhead population has been growing at 
3.7 percent per year since at least 1978. More details about 
the counts and the estimates are in my written testimony.
    But if the rate of growth has continued, there are now 
about 20,000 to 21,000 whales in the population. And 
observations of record-high calf counts and harvested whales 
that are very healthy provide support for the assumption that 
the population has continued to grow.
    Chairman Hopson and Mayor Brower provided you information 
about the size of the quota and some information about the 
harvest. I want to repeat one thing that John mentioned. That 
is the annual bowhead harvest by the AEWC is only a small 
percentage of the population. It is less than one-quarter of 1 
percent of the population.
    The Scientific Committee of the IWC confirms that the 
harvest is sustainable. Their conclusions are based on not only 
common sense but also a sophisticated modeling tool called a 
strike limit algorithm, or SLA. The SLA for bowheads balances 
the possible conservation risk to the population while meeting 
nutritional and cultural needs of aboriginal people in Alaska 
and Chukotka.
    SLAs have been rigorously tested using simulations. The 
SLAs are tested under a broad range of different situations to 
see if the SLAs respond appropriately. The question is really 
whether the SLA will reduce the quota when there is a 
conservation risk. So they have been tested under situations 
related to possible impacts from a rapidly changing Arctic, 
such as major dieoffs that could occur periodically.
    Because of the successful testing, the Scientific Committee 
now uses the SLAs to provide advice to the IWC commissioners 
about safe subsistence harvest levels.
    In the past, some member nations of the IWC have blocked 
the bowhead quota based on politics. It is important that the 
future efforts to renew the subsistence quota, whether set by 
the IWC or domestically by the U.S., be based primarily on 
information about the population, status, and health of the 
whales, and the documented need of subsistence communities.
    The bottom line is the bowhead population is large and can 
easily sustain the level of harvest required to meet the needs 
of Alaskan Natives and Chukotkans.
    The science about bowheads and the local management of the 
hunt by the AEWC provide justification and support for the 
quota request in 2018. We will collectively do all we can to 
continue to make data available to the IWC, the U.S. 
Government, and the broader science community.
    Thank you again for the opportunity to speak today.
    [The prepared statement of Dr. Suydam follows:]

  Prepared Statement of Dr. Robert Suydam, Senior Wildlife Biologist, 
                          North Slope Borough
Executive Summary
    The bowhead whale population along the coast of Alaska is healthy 
and growing. Our last count in 2011 showed that it contained almost 
17,000 whales. When combined with past counts, the 2011 data show that 
the bowhead population has been growing at 3.7 percent per year since 
1978. If this rate of growth has continued, there are now about 21,000 
whales in the population. Observations of record high calf counts and 
harvested whales that are very healthy provide support for the 
assumption that the population has continued to grow.
    The bowhead harvest by the Alaska Eskimo Whaling Commission and 
Chukotka Natives in Russia is only a small percentage (<0.25 percent) 
of the population. The Scientific Committee (SC) of the International 
Whaling Commission (IWC) confirms that the harvest is sustainable. 
Their conclusions are based on a sophisticated modeling tool (i.e., a 
Strike Limit Algorithm) that evaluates the possible conservation risk 
to the bowhead population while also meeting nutritional and cultural 
needs of aboriginal people in Alaska and Chukotka.
    In the past, some member nations of the IWC blocked the bowhead 
quota based on politics. It is important that future efforts to renew 
the quota, including in 2018, be based primarily on information about 
the population status and health of whales and the documented need of 
subsistence communities. The bottom line for bowhead whales is that the 
population is large and can easily sustain the level of harvest 
required to meet Alaska and Chukotka Native needs. The science about 
bowheads and the local management of the hunt by the Alaska Eskimo 
Whaling Commission provide justification and support for the quota 
request in 2018 and we will collectively do all we can to continue to 
make data available for making informed decisions in the future.
Testimony
    My name is Robert Suydam. I am a Senior Wildlife Biologist with the 
North Slope Borough (NSB) Department of Wildlife Management. I have 
lived in Utqiagvik (formerly known as Barrow) and worked for the NSB 
since 1990. The NSB is the equivalent of a county government that 
encompasses the entire North Slope of Alaska. Our Department includes 7 
Ph.D. level biologists or veterinarians and a similar number of 
subsistence hunters. It is unique for a municipal government to have 
its own science program but shows the commitment of the Inqiaupiat of 
Northern Alaska to ensuring that high quality data are available for 
making the informed management decisions needed for a sustainable 
harvest.
    I have a Ph.D. in Aquatic and Fishery Sciences from the University 
of Washington and a Master's in Biology from the University of Alaska, 
Fairbanks. I am the Vice-Chair of the International Whaling 
Commission's (IWC) Scientific Committee (SC) and will begin serving as 
Chair in May 2018. I also serve on the U.S. Marine Mammal Commission's 
Committee of Scientific Advisors. Today I would like to provide you 
with information about the population status of the bowhead whales that 
occur in the Bering, Chukchi and Beaufort seas.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Figure 1. Bowhead whales migrating past Point Barrow during spring 
(left). A subsistence harvested bowhead whale provides for the 
nutritional and cultural needs of Inuit in Alaska (right).

    The bowhead population is doing exceedingly well. Our last 
successful count was in 2011 when we estimated there were 16,820 whales 
(95 percent confidence interval: 15,176-18,643). Combined with past 
counts, the 2011 data show that the bowhead population has been growing 
at 3.7 percent per year since 1978 (95 percent confidence interval: 2.9 
percent-4.6 percent). Assuming this growth rate has continued, it is 
likely that the bowhead population now numbers near 21,000 whales. 
Recent data, including record high counts of bowhead calves seen during 
aerial surveys (flown by National Marine Fisheries Service [NMFS] with 
funding from the Bureau of Ocean Energy Management) this autumn, 
provide evidence that the population has continued to grow. Other 
supporting evidence that the population is growing is our Department's 
examination of harvested whales. Those animals are almost always 
healthy, in good body condition, and have surprisingly few diseases or 
parasites.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Figure 2. Bowhead whale population estimates (with corresponding 95 
percent confidence intervals) from 1978 to 2011 showing a growth rate 
of 3.7 percent per year.

    The SC uses population data and models to provide advice to the 
Commission about safe quota levels for subsistence harvests. The SC 
bases its advice on Strike Limit Algorithms (SLA), sophisticated and 
extensively tested computer models about whale population dynamics. The 
first SLA developed by the SC was for bowheads, initially implemented 
in 2003. SLAs now have been developed for most other subsistence 
stocks, including gray whales. SLAs give informed advice that balances 
the conservation of whale stocks with subsistence needs.
    Most of the current quota for bowheads is used in Alaska. However, 
subsistence communities in Chukotka, that primarily harvest gray 
whales, also take a small number of bowhead whales on a periodic basis. 
Prior to 1997, the entire IWC quota for bowhead whales was used in 
Alaska. Since 1997, the U.S. and Russia have shared the IWC's bowhead 
whale quota pursuant to a bilateral agreement. The entire IWC quota for 
gray whales currently is used in Russia. When the U.S. again allows the 
Makah to harvest gray whales, the U.S. will need to negotiate a 
bilateral agreement with Russia for sharing the gray whale quota; it 
will not be necessary to seek a new gray whale quota from the IWC.
    During their development, extensive testing of the SLAs was done by 
running trials called ``simulations.'' The simulations tested the SLAs 
in a broad range of hypothetical, but feasible, situations, including 
major periodic die-offs of the whale population. Such die-offs do not 
appear likely at this time, but are feasible given the unknown effects 
of changing sea ice and climate conditions, or in the event of a major 
oil spill. The results for each simulation were then evaluated for how 
well they met the IWC's conservation goals for protecting whales and 
how well they met subsistence needs. Under those simulations, the SLAs 
appropriately reduced quotas when there was a need to conserve whales. 
The results of the evaluations led the SC to conclude that SLAs are the 
best tool for sustainably managing bowhead and other subsistence whale 
harvests.
    Counts of bowheads were initiated by the National Marine Fisheries 
Service (NMFS) in the mid-1970s. Because of concerns within the North 
Slope community that NMFS was not listening to elders or expert hunters 
about proper counting methods, the NSB began counting bowheads in the 
early 1980s. Counts were conducted yearly but as data were collected, 
it was obvious that the bowhead population was growing steadily. 
Because of the high quality of the data and the life history traits of 
bowheads, the SC agreed that population estimates would only be needed 
every 10 years. Since our last count was in 2011, and it usually takes 
several years to successfully collect good data, we have already begun 
planning for a bowhead count in spring 2019.
    Dr. Tom Albert, one of my mentors and predecessors, worked closely 
with Harry Brower, Sr., father of Mayor Harry Brower Jr., who you have 
also heard from today. Harry Sr. told Tom that bowheads were migrating 
beyond the view of whale counters and that whales were not afraid of 
sea ice. He said that bowheads continued to migrate under the ice even 
when there was no visible open water. Whales could break through ice to 
make their own breathing holes. Because of this advice, the bowhead 
count broke new ground by monitoring the calls and songs of whales to 
adjust the visual counts for whales that passed beyond the view of 
counters. This novel approach was the first time acoustic recordings 
were used to estimate the size of a whale population, but is now 
regularly used to monitor other marine mammal populations.
    Hunters inform NSB scientists about many other aspects of the 
biology and population status of bowheads. They also help to keep us 
safe while we work on the sea ice counting whales and collecting 
biological samples from harvested whales. Hunters participate in many 
other aspects of science such as tagging bowheads with satellite 
transmitters.
    For the past 35 years, the NSB has invested heavily in bowhead 
science, with additional support from NMFS, oil companies and others. 
We work with scientists from across the U.S. and around the world. Our 
program is highly regarded and well published. Hundreds of peer-
reviewed publications and numerous theses and dissertations have 
resulted from the research. One of our statisticians, Judy Zeh from the 
University of Washington, has worked with us since the early 1980s. She 
has been instrumental in a variety of aspects of our program and she 
served as the IWC SC chair from 2000 to 2002. The bowhead program 
brings to the IWC a balanced approach to management of whales. The 
respect for the bowhead science program is reflected in Judy's roll as 
a past Chair of the SC and my upcoming role as Chair.
    The scientific results from the bowhead science program are 
valuable but more importantly the NSB's investment has resulted in 
successful population counts and the construction and implementation of 
the bowhead SLA. The tools and scientific information are available for 
making informed decisions about a sustainable bowhead quota that also 
meets subsistence needs.
    The bowhead science program is also valuable as the Arctic is 
changing rapidly and dramatically. The combination and integration of 
science and traditional knowledge is essential for collecting 
information to support informed decision-making in the Arctic. Right 
now bowheads are responding well to reductions in sea ice. Whales, 
especially immature whales are in better body conditions in years with 
less ice in the Beaufort Sea than in years with more. It is likely that 
more sunlight penetrating the water has increased productivity, 
resulting in more food for bowheads. Even though bowheads are doing 
well, the changes in sea ice are making it more difficult for whale 
hunters and scientists. We are struggling to deal with the thinner and 
less safe ice. We do not have substantial pressure ridges in the shore-
fast ice from which to count whales. We are concerned that it will be 
more and more difficult to count bowheads in the future, but we are 
actively considering new approaches and options.
    In the past, some member nations of the IWC blocked the bowhead 
quota request for political reasons. It is important that future 
efforts to renew the quota, including in 2018, be based primarily on 
information about the population status of whales and the documented 
need of subsistence communities. The bottom line for bowhead whales is 
that the population is large and can easily sustain the small harvest 
required to meet Alaskan and Chukotkan Eskimo subsistence needs. The 
science about bowheads and the local management of the hunt by the 
Alaska Eskimo Whaling Commission provide justification and support for 
the quota request in 2018 and we will collectively do all we can to 
continue to make data available for making informed decisions in the 
future.
    Thank you for allowing me to provide you some information about the 
science and management of bowhead whales. I would be happy to try to 
answer your questions.

    Senator Sullivan. Thank you, Dr. Suydam.
    President Swartz.

             STATEMENT OF CHRIS SWARTZ, PRESIDENT, 
               THE KEWEENAW BAY INDIAN COMMUNITY

    Mr. Swartz. Good afternoon, Chairman Sullivan, Ranking 
Member Peters, and members of the Subcommittee.
    My name is Chris Swartz, and I am the President of the 
Keweenaw Bay Indian Community. The Keweenaw Bay Indian 
Community is the oldest and largest reservation in Michigan. We 
live on the shores of Lake Superior, Keweenaw Peninsula, and 
Michigan's Upper Peninsula.
    Thank you very much for the opportunity to appear before 
you today. I am here today representing my tribe, but we are 
not the only federally recognized tribe that is deeply 
concerned about the protection of our natural resources so we 
may exercise our treaty rights. The threats to those rights and 
the intergovernmental comanagement are important to all 11 
tribes who are members of an organization called the Great 
Lakes Indian Fish and Wildlife Commission.
    The Great Lakes Indian Fish and Wildlife Commission is an 
extremely important organization made up of 11 tribes that 
retain treaty rights to hunt, fish, and gather in the treaty's 
territory ceded to the United States in the mid-1800s. Vast 
portions of Lakes Superior, Huron, and Michigan, were ceded in 
the treaties of 1836 and 1842. These treaties were made and are 
made between nations and are as relevant as treaties with our 
Canadian neighbors. Over the years, Federal and State courts 
have affirmed our treaty reserve rights to hunt, fish, and 
gather off our reservations on those ceded lands around the 
Great Lakes.
    These rights were not granted in the treaties without 
purpose. They were reserved by our ancestors to provide for the 
continuation of our way of life.
    For the Keweenaw Bay Indian Community, as well as other 
tribes, our reservations on the shores of Great Lakes have 
depended on healthy and robust Great Lakes fisheries for 
thousands of years. Today, we struggle to maintain this 
culturally significant practice to provide the extremely 
important food source we need.
    This sustenance resource is not only physical. It is also 
spiritual, culturally important, and medicinal.
    As I sit before you, Mr. Chairman, with my fellow witnesses 
from Alaska who are able to feed their communities while the 
fisheries in Alaska do so much to feed the world, I have to be 
honest with you and the rest of the subcommittee. The truth is 
that, after they clear cut our forests and mined copper, iron 
ore, and other metals across our ceded territory to build 
Detroit, Chicago, Milwaukee, and many other cities, our ability 
to thrive as a fishing tribe was decimated.
    While those cities were being built, our fish fed the 
occupants of many of those rapidly growing cities. Had that not 
taken place, I assure you, we would be competing with Alaska on 
the commercial fishing front.
    Today, as a result of mining activity in our ceded 
territory, there is an ever-increased direct threat to the 
fishery resources on Lake Superior, especially to lake trout 
and whitefish. A highly important whitefish and lake trout 
spawning reef near Grand Traverse Harbor is being literally 
smothered by mining waste.
    This threat, if left unaddressed, would undermine the 
progress made in restoring a self-sustaining lake trout fishery 
in Lake Superior. In addition, in failing to uphold our 
international agreement with Canada in this regard, this threat 
further undermines the ability of my tribe and others to 
sustain themselves through the harvest and sharing of fish.
    Mining waste called ``stamp sand'' was dumped along the 
eastern shore of Lake Superior's Keweenaw Peninsula during the 
late 1800s and early 1900s. The stamp sands destroy a spawning 
reef by filling in the cobbled substrate where the fish lay 
their eggs. The stamp sands also contain high levels of copper, 
mercury, arsenic, and other contaminants toxic to aquatic life. 
As such, juvenile fish are not found in shoreline habitats that 
are covered in stamp sands along this reef.
    The Great Lakes Indian Fish and Wildlife Commission were 
pioneers in identifying this problem and have been more than 
just advocates in identifying a solution. My tribe and other 
Great Lakes tribes will depend on the Great Lakes Indian Fish 
and Wildlife Commission to work with many others to solve this 
problem and fulfill the obligation of international treaties 
and agreements with Canada.
    We are taking action. Federal, State, and tribal managers 
have coordinated to take immediate steps to protect the viable 
portion of the reef. This past summer, dredging of stamp sands 
occurred in Grand Traverse Harbor and the adjacent beach area.
    In addition, funds were committed to dredge a trench or 
trough that has protected the reef but has now filled up with 
stamp sands. This dredging is estimated to provide 3 to 5 years 
of protection for the reef, but the trough will refill and 
stamp sands will again encroach upon the reef.
    A Federal, State, tribal task force is now being 
established to explore long-term solutions to the problem and 
identify sources of funding. There is no one partner that can 
accomplish this work. Commitment and cooperation by all 
affected governments will be necessary.
    In closing, I respectfully request congressional support of 
the intergovernmental task force created to develop locally 
driven solutions. Much of this effort comes from funding 
available through congressional appropriations for the Great 
Lakes Restoration Initiative, including and especially funding 
for the appropriate and legitimate roles of tribes as partners.
    With this effort, we can prevent the damage occurring at 
the spawning reef and actually make some semblance of progress 
in restoring the tremendous potential for the Great Lakes to 
become on par with Alaska in feeding an ever-growing world. 
After all, a healthy and well-fed world is a safer world for 
all of us in the United States of America.
    Thank you again for this opportunity. I would be happy to 
answer any questions you have.
    [The prepared statement of Mr. Swartz follows:]

          Prepared Statement of Warren C. Swartz, President, 
                     Keweenaw Bay Indian Community
    Chairman Sullivan, Ranking Member Peters and Members of the 
Subcommittee, my name is Chris Swartz and I am the President of the 
Keweenaw Bay Indian Community. The Keweenaw Bay Indian reservation is 
located near the town of Baraga, Michigan on the east side of Lake 
Superior's Keweenaw Peninsula. Thank you for the opportunity to appear 
before you today.
    I am here today to represent my tribe, but my tribe is not the only 
one concerned about our subsistence rights and threats to those rights, 
and interested in demonstrating how international treaties can provide 
models for intergovernmental co-management, respect, coordination and 
problem solving.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    My tribe is a member of an intertribal agency known as the Great 
Lakes Indian Fish and Wildlife Commission (GLIFWC).\1\ GLIFWC is made 
up of eleven Ojibwe tribes \2\ that hold treaty reserved rights to 
hunt, fish and gather in territory that we ceded (or sold) to the 
United States in Treaties in the mid-1800s (see map). As relevant to 
this hearing, portions of Lakes Superior, Huron and Michigan were ceded 
in the Treaties of 1836 and 1842.\3\ GLIFWC assists its member tribes 
in implementing their off-reservation treaty rights.
---------------------------------------------------------------------------
    \1\ For more information, see www.glifwc.org.
    \2\ GLIFWC member tribes are: in Wisconsin--the Bad River Band of 
the Lake Superior Tribe of Chippewa Indians, Lac Courte Oreilles Band 
of Lake Superior Chippewa Indians, Lac du Flambeau Band of Lake 
Superior Chippewa Indians, Red Cliff Band of Lake Superior Chippewa 
Indians, St. Croix Chippewa Indians of Wisconsin, and Sokaogon Chippewa 
Community of the Mole Lake Band; in Minnesota--Fond du Lac Band of Lake 
Superior Chippewa, and Mille Lacs Band of Ojibwe Indians; and in 
Michigan--Bay Mills Indian Community, Keweenaw Bay Indian Community, 
and Lac Vieux Desert Band of Lake Superior Chippewa Indians.
    \3\ See Treaty of 1836, 7 Stat. 491. See, Treaty of 1842, 7 Stat. 
591.
---------------------------------------------------------------------------
    Treaties were and are made between nations. Thus we must consider 
the treaties that were made between the young United States and tribal 
nations that predated the arrival of Europeans in addition to relevant 
treaties with our Canadian neighbors. Federal and state courts have 
affirmed our treaty-reserved rights to hunt, fish and gather off our 
reservations on ceded lands. \4\ These rights were not granted in the 
treaties, rather they were reserved by our ancestors to provide for the 
continuation of our way of life as we had always lived it on the 
region's lands and waters. The Keweenaw Bay Indian Reservation, created 
by the Treaty of 1854, is but a small part of our much larger ancestral 
homeland, which was ceded to the United States in these earlier 
treaties.\5\
---------------------------------------------------------------------------
    \4\ See, e.g., People of the State of Michigan v. Jondreau, 384 
Mich. 539, 185 N.W. 2d 375 (Mich. 1971), and United States v. Michigan, 
471 F.Supp. 192 (W.D.Mich. 1979).
    \5\ See Treaty of 1854, 10 Stat. 1109.
---------------------------------------------------------------------------
    The Keweenaw Bay Indian Community, as well as other tribes located 
around Lake Superior, are and have always been, fishing tribes. Since 
time immemorial, these tribes have used the resources provided by 
gitchi-gami (or Lake Superior) to sustain their communities. This 
sustenance is not only physical; it is also spiritual, cultural, 
medicinal and economic. These tribes, in our first treaty (with the 
Creator) accepted a responsibility to protect and sustain the natural 
resources that provide for the lifeways of our people. We have hundreds 
of years of experience exercising this responsibility, and can bring a 
wealth of traditional ecological knowledge to bear on natural resource 
management questions. In modern times, we welcome and actively 
participate in partnerships with like-minded agencies that are also 
stewards of these natural resources.
    The history of cooperative, coordinated fishery management in the 
Great Lakes is both interesting and instructive. During the late 1800s 
and through the first half of the 1900s, the Great Lakes states and 
Ontario tried unsuccessfully to create cooperative fishery management 
mechanisms. It was only after the invasive sea lamprey began to 
devastate the lake trout fishery that the jurisdictions realized their 
problems could not be solved individually--they needed to work together 
with the aid of the Federal government. The 1954 Convention on Great 
Lakes Fisheries--a treaty between the U.S. and Canada--created the 
Great Lakes Fishery Commission and committed the parties to control sea 
lamprey, advance shared science, and help agencies work together.\6\ 
The Convention did not, however, divest the states, the province, or 
the tribes of their management authority. In fact, tribes became active 
partners in the Fishery Commission's structures after state and Federal 
courts re-affirmed their treaty-reserved fishing rights.
---------------------------------------------------------------------------
    \6\ For more information, see www.glfc.org.
---------------------------------------------------------------------------
    There are a number of mechanisms set up under the Fishery 
Commission that provide for the cooperative, coordinated exercise of 
each jurisdiction's management authority--state, provincial and 
tribal--with the assistance of the Federal governments. These 
mechanisms demonstrate an approach that is bottom-up rather than top-
down, and respects each jurisdiction's expertise, knowledge and 
management authority. The Federal government assists in coordination 
but does not prescribe outcomes.
    There are many threats to Lake Superior's fishery in addition to 
sea lamprey. I would like to tell you about one other particular threat 
that would, if left unaddressed, undermine the significant progress 
that the partners have made in restoring a ``self-sustaining'' lake 
trout population, a status that was declared in 1996. This threat also 
undermines the ability of my tribe and others to sustain themselves 
through the harvest and sharing of fish, and undermines the obligation 
of the United States to uphold its treaty guarantees. An important 
whitefish and lake trout spawning reef is being smothered with what are 
known as stamp sands--mining waste that was dumped into Lake Superior 
and on its shoreline during the late 1800s and early 1900s. The stamp 
sands are destroying the spawning reef by filling in and contaminating 
the cobble substrate where the fish lay eggs. The stamp sands are high 
in copper, mercury, arsenic and other contaminants toxic to aquatic 
life, illustrated by the fact that juvenile fish are not found in 
shoreline habitats that are covered in stamp sands (see chart, below). 
At present, approximately 35 percent of the reef is no longer viable 
because it is covered with an inch or more of stamp sands; modeling 
predicts that by 2025, 60 percent of the reef will no longer be viable 
for lake trout and whitefish spawning.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The Great Lakes supports a $7 billion commercial, subsistence and 
recreational fishery, including associated tourism expenditures and 
more than 75,000 direct and indirect jobs.\7\ In Michigan waters of 
Lake Superior, Buffalo Reef is estimated to supply 23 percent of the 
tribal commercial harvest of lake trout, and the loss of this habitat 
would likely result in the loss of approximately 125,000 pounds of 
whitefish and 12,500 pounds of lake trout annually. If the reef is 
lost, over $1 million in tribal fishing jobs would also be lost.\8\ 
There would be additional impacts to the recreational fishery as well 
as to local businesses that rely on locally caught fish. At one time, 
the Great Lakes fed the cities of Chicago and Detroit. As the 
population continues to grow, their economies can only be helped by a 
productive fishery. Not only can the Great Lakes fisheries continue to 
feed the populations of these cities, but the recreational fishing 
industry is a growing source of a healthy economy in this region. Both 
depend on healthy ecosystems and resources.
---------------------------------------------------------------------------
    \7\ See http://www.glfc.org/the-fishery.php
    \8\ Great Lakes Indian Fish and Wildlife Commission, unpublished 
data.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Buffalo Reef is also an important source of genetic diversity to 
Lake Superior. Fish tagged on the reef have been caught as far away as 
Pancake Bay, Ontario and the western arm of Lake Superior.\9\
---------------------------------------------------------------------------
    \9\ Great Lakes Indian Fish and Wildlife Commission, unpublished 
data.
---------------------------------------------------------------------------
    In addition to the treaties with tribes and the Convention on Great 
Lakes Fisheries, another treaty has bearing on this issue. The Boundary 
Waters Treaty of 1909 obliges the U.S. and Canada ``not to pollute'' 
the boundary waters.\10\ That obligation has been implemented through 
an agreement, known as the Great Lakes Water Quality Agreement (GLWQA), 
which was first signed in 1978. In 2012, it was updated with the 
signing of a Protocol that explicitly reaffirms ``the rights and 
obligations of both countries under the Treaty relating to the Boundary 
Waters and Questions arising along the Boundary between Canada, and the 
United States done at Washington on 11 January 1909 (Boundary Waters 
Treaty) and, in particular, the obligation not to pollute boundary 
waters;''.\11\
---------------------------------------------------------------------------
    \10\ Boundary Waters Treaty of 1909, 36 Stat. 2448. Article IV.
    \11\ See, Protocol Amending the Agreement Between Canada and the 
United States of America on Great Lakes Water Quality, 1978, as Amended 
on October 16, 1983 and on November 18, 1987, at http://www.ijc.org/
en_/Great_Lakes_Water_Quality
---------------------------------------------------------------------------
    The GLWQA is an agreement between the U.S. and Canada, but, like 
the Convention on Great Lakes Fisheries, its goals cannot be 
accomplished without the participation of the other governments with 
management authority over the fishery, including tribes that hold 
rights reserved in treaties equal in stature to the Boundary Waters 
Treaty. Tribes have management authority relative to their treaty 
rights, and must be ``in the room and at the table'' with other 
governmental partners when natural resource decisions are being made. 
This requires that equitable funding be available to support the 
capacity of tribes to participate in these partnerships and to develop 
the science and management expertise that they need to be effective 
partners.
    There are a number of mechanisms for coordination under the 
auspices of the GLWQA, including intergovernmental working groups that 
are producing Lakewide Action and Management Plans (LAMPs) for each of 
the Great Lakes. In Lake Superior, this type of coordinated, binational 
state, federal, tribal and provincial partnership has been ongoing 
since the early 1990s. The most recent LAMP, produced in 2015, 
identifies actions to restore and protect Buffalo Reef as a priority 
project from a lakewide perspective.\12\ The National Oceanic and 
Atmospheric Administration (NOAA), the U.S. Army Corps of Engineers, 
the Environmental Protection Agency, and the Bureau of Indian Affairs 
as well as state and tribal governments have committed to take actions 
to further this work.
---------------------------------------------------------------------------
    \12\ Lake Superior Lakewide Action and Management Plan, https://
www.epa.gov/sites/production/files/2016-10/documents/
lake_superior_lamp_2015-2019.pdf. Page 8.
---------------------------------------------------------------------------
    And they are taking action--federal, state and tribal managers have 
coordinated to take immediate steps to protect the viable portion of 
the reef. This past summer, stamp sand dredging occurred in Grand 
Traverse Harbor and the adjacent beach area. In addition, funds have 
been committed to dredge a trench, or trough, that has protected the 
reef, but which has now filled up with stamp sands. This dredging is 
estimated to provide 3-5 years of protection for the reef, but the 
trough will refill and stamp sands will again encroach upon the reef. A 
Task Force led by federal, state, tribal agencies is now being 
established to explore long term solutions to the problem and identify 
sources of funding. The Task Force will include other stakeholders as 
well, including Michigan Technological University. There is no one 
partner that can accomplish this work alone, commitment and cooperation 
by all affected governments and parties will be necessary.
    There is an important role for Congress here as well. Congress can:

  <bullet> support the work of the intergovernmental Buffalo Reef Task 
        Force as it develops appropriate, locally driven long term 
        solutions that will have benefits at a basin-wide scale;

  <bullet> support funding at no less than $300 million for the Great 
        Lakes Restoration Initiative (GLRI), which is doing so much to 
        enable the protection and restoration of the Great Lakes;

  <bullet> support the appropriate and legitimate role of tribes to be 
        ``at the table'' as full partners in the development and 
        implementation of solutions that will both restore the reef and 
        protect it from further damage. The GLRI has provided an 
        important source of funding to KBIC, other Great Lakes tribes, 
        and to GLIFWC so that they have the capacity to carry out these 
        roles; and

  <bullet> recognize that the United States' treaty obligations require 
        the restoration of this reef. Habitat destruction creates a 
        backdoor abrogation of the treaties between the United States 
        and tribes; treaty reserved rights are diminished when the 
        resources that are the subject of those rights are destroyed.

    Lake Superior is an invaluable resource. The restoration and 
protection of Buffalo Reef will have long-term benefits for tribes and 
the continuation of their lifeways, as well as provide broad benefits 
to the region and all the communities that value the greatest of the 
Great Lakes, gitchi-gami. Finally, I respectfully invite the Chair, 
Ranking Member, and any or all members of this Subcommittee to tour 
Buffalo Reef and to visit the L'Anse reservation, the oldest and 
largest reservation in Michigan.

    Senator Sullivan. Great. Thank you, President Swartz.
    And thank you, gentlemen, for the testimony. It was 
outstanding, as expected.
    Let me begin with some questions. I will start with Mayor 
Brower.
    Just for the audience's context and those who might be 
watching on TV, the North Slope Borough over which the mayor is 
the mayor is about the size of Wyoming, larger than 39 of the 
United States' States. So it is a rather large territory, even 
for Alaska.
    Mr. Mayor, can you please discuss, you touched on it in 
your testimony, but a little more deeply, if you might, the 
cultural significance of the subsistence whale harvest in the 
communities you represent? For example, what happens in a 
community following the successful hunt of a bowhead whale?
    Mr. Brower. Senator, thank you for the question. I have to 
start with my own community. I reside in Barrow. I was born and 
raised there.
    Whaling is a very spiritual tradition we practice in our 
communities. This is something that is taught to us at a young 
age. Our parents teach us how to store food and gather food for 
the oncoming season, sharing traditions passed on from 
generation to generation, storing resources that we harvest. 
The bowhead whale is one of them that is a very important 
resource to our villages, teaching the young the proper methods 
of butchering is part of that practice. Putting food away in a 
method that we utilize for oncoming celebrations once a 
successful landing of a whale has occurred, that kind of 
practice we continue to teach today.
    The celebrations are very significant in my area. The 
spring hunt starts in the April and May timeframe. We conduct 
our hunting activities of the subsistence harvest of a whale. 
Once a whale has been landed, it is brought up on ice and 
butchered and brought into the community. Sharing occurs at 
that time from the home of the captain, sharing and cooking, 
preparing food to be distributed to about 2,500 to 3,000 people 
in one day, the day after the harvest. That is very 
significant.
    This kind of practice, we include the whole family, young 
and old. They take part in preparing that food to be 
distributed to the people in the community. The sharing 
continues in the fall during Thanksgiving and Christmas. We 
take the remaining portions that have been left in ice, and 
they are brought out, butchered. After the butchering occurs, 
they are shared in smaller portions to be distributed in the 
church for the people sitting in the church wanting to receive 
shares of that meat that we serve at that time.
    Senator Sullivan. So it is cultural and nutritional?
    Mr. Brower. It is cultural and nutritional, yes, very 
significant in our community, to that end.
    Senator Sullivan. Great. Thank you.
    Chairman Hopson, since 1981, the AEWC has helped manage the 
bowhead whale harvest. Can you explain the role that the AEWC 
plays with regard to conservation and management? In addition, 
you both talked eloquently about the IWC. But what does the 
organization that you are Chair of do? And how important a role 
does it play?
    Mr. Hopson. Thank you, Senator, for that question. The AEWC 
manages the bowhead subsistence harvest under a cooperative 
agreement with NOAA. We are responsible for implementing the 
IWC quota on our bowhead whale subsistence harvest and ensuring 
that our villages and whaling captains abide by the quota and 
other IWC mandates.
    Our cooperative agreement is accompanied by a management 
plan that contains regulations governing our harvest. We ensure 
compliance with this management plan, and we consult with NOAA 
and impose penalties, if need be.
    Senator Sullivan. Do you think that the IWC and the Whaling 
Convention Act are working well as it relates to your work and 
subsistence opportunities for Alaskan Natives? And if not, what 
should we be looking at in terms of improvement?
    Mr. Hopson. The IWC is no guarantee. As stated earlier, we 
have to receive 75 percent of their vote to get our quota. A 
lot of the countries that are in the IWC are antiwhaling. That 
is going to be a challenge on our delegation's part.
    The Whaling Convention Act does not provide us any 
protection. It has the opportunity for us to go to court. An 
injunction can be filed. As you know, with the Makah whalers, 
that can take a lot of time as well. That would lead us to not 
whaling for our people.
    Senator Sullivan. Great. Thank you. Very, very informative. 
I appreciate the insights that you are providing us.
    Senator Peters.
    Senator Peters. Thank you, Mr. Chairman.
    Thank you to our witnesses. Fascinating testimony from all 
of you. You have done an outstanding job.
    President Swartz, I appreciate your comments on stamp 
sands. I am going to get to you in a minute.
    But before I do that, I want to recognize some other folks 
who care deeply about this issue. Those are folks from Lake 
Linden High School who actually came into my office earlier 
this spring and visited to talk about some of the work that 
they have been doing in this area.
    They tested how different plant species grow on stamp 
sands, and having plants growing on these sands could possibly 
help stabilize them and reduce erosion.
    So, Mr. Chairman, I ask that an article describing their 
work from the Houghton, Michigan's Daily Mining Gazette be 
entered into the record.
    Senator Sullivan. Without objection.
    [The information referred to follows:]

                  The Daily Mining Gazette--10/30/2017

         Stamp sand research project wins national competition
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Garrett Neese/Daily Mining Gazette Lake Linden High School ninth-
graders Siona Beaudoin, Beau Hakala and Gabe Poirier pose Thursday with 
their first-place trophy from the national eCYBERMISSION competition. 
They won in June for their project on which plants grow best in stamp 
sands.

    LAKE LINDEN--Fresh off winning a nationwide competition, the three 
Lake Linden High School ninth-graders on Lake Linden's eCYBERMISSION 
team are making another run.
    Siona Beaudoin, Beau Hakala and Gabe Poirier won first place in 
June at the national competition, sponsored by the U.S. Army. Their 
project measured the types of plants that grow best in stamp sands to 
combat erosion.
    The team planted four plants--red fescue, red clover, treefoil and 
alfalfa--in mixtures with five percentages of stamp sand--0, 25, 50, 75 
and 100. Of those, fescue and alfalfa fared the best in full stamp 
sand.
    At the national competition in June, the team gave a four-minute 
presentation to five judges. After the presentation, the judges toured 
the teams in groups of two, two and one and questioned the teams in 10-
minute sessions. Those questions covered topics like how the experiment 
would benefit the community, what they could have done better and how 
they conducted the experiment.
    ``What `stamp sand' was was a question that came up a lot,'' Hakala 
said.
    Being questioned by the judges was nerve-wracking, all three said, 
but, Hakala said, ``it was a good experience in D.C.''
    On the final day of the trip, the winners were announced at a 
luncheon. The team was surprised by the win.
    ``We didn't get up for a few seconds,'' Poirier said.
    While in Washington, the team visited the National Mall and met 
with U.S. Sens. Gary Peters and Debbie Stabenow, as well as doing a 
virtual presentation broadcast on the national Science and Teachers 
Association website.
    The team was advised by Lake Linden teacher Nick Squires; Gretchen 
Hein, a senior lecturer at Michigan Technological University; and Ryan 
Knoll, a chemical engineering student at Tech.
    In the months leading up to the trip, the team made presentations 
to the Lake Linden School Board, the Lake Linden Village Council, 
professors at Michigan Technological University, Department of Natural 
Resources and U.S. Rep. Jack Bergman.
    For the next year, the team will do another experiment related to 
stamp sand. Because of rules regarding how much research can be carried 
over to the next year, it probably won't involve growing plants, 
Beaudoin said.
    ``We were competing with a bunch of big private schools, so I guess 
even though we come from a small area with a really small school, we 
can still do big stuff,'' she said.

    Senator Peters. I have another letter as well from the 
Council of Lake Committees, which supports the stamp sands 
remediation. If that could be entered into the record?
    Senator Sullivan. Without objection.
    [The information referred to follows:]

                                 Council of Lake Committees
                                    Ann Arbor, MI, October 30, 2017

Ms. Tinka Hyde,
U.S. EPA--Great Lakes National Program Office,
Chicago, IL.

Dear Ms. Hyde:

    As chair of the Council of Lake Committees (CLC), I am writing to 
express support for the Keweenaw Stamp Sands Project and protection of 
Buffalo Reef in Lake Superior near Gay, Michigan. This project proposes 
to dredge stamp sands from the trough adjacent to the reef, remove 
stamp sand s from the beach adjacent to the reef and stabilize the 
source pile to prohibit further migration of the stamp sands. The CLC 
consists of senior-level managers from state, tribal, and provincial 
fishery management agencies on the Great Lakes. By facilitating 
communication and part ner ship among agencies, the CLC develops 
management and restoration plans, as well as addresses mutual fishery 
objectives.
    In 2009, the Great Lakes Fishery and Ecosystem Restoration Project 
Review Committee recommended, and the CLC approved, the Keweenaw Stamp 
Sands Project as a high priority. This project is critical to protect 
and restore fisheries habitat in Lake Superior, which is threatened by 
copper mine waste. Two copper mines, operating between 1898 and 1932, 
dumped more that 25 million tons of waste (i.e., stamp sands) into the 
Lake Superior Basin. These stamp sands contain high amounts of copper 
and arsenic and cover 1,426 acres of shoreline and lakebed to date. The 
stamp sands have been migrating along the southeast shoreline of the 
Keweenaw Peninsula from near Gay, Michigan to Grand Traverse Bay 
Harbor, Lake Superior and are threatening to cover near by Buffalo 
Reef. Buffalo Reef is one of the most productive Lake Trout and Lake 
Whit efish spawning areas in Keweenaw Bay. As a part of a lakewide plan 
to rest ore Lake Trout in Lake Superior, more than 1.6 million Lake 
Trout were stocked on Buffalo Reef to re-establish this population. 
Successful rehabilitation has occurred, but continued degradation of 
the reef could undo this success that was accomplished by more than 30 
years of stocking. The stamp sands also threaten habit at for juvenile 
fish along the shoreline south of the Traverse River. Currently, it is 
estimated that the reef is 35 percent covered with stamp sand s, and 
within the next 10 years, 60 percent of the reef will be covered if 
stamp sands are allowed to continue to migrate.
    The CLC applauds the commitment of the U.S. Environmental 
Protection Agency (EPA) and U.S. Army Corps of Engineers to develop and 
fund a short-term solution to the stamp sands migration issue an d 
strongly encourages the EPA to advance funding to develop and implement 
a long-term solution. The loss of Buffalo Reef spawning habitat could 
undo more than 50 years of Lake Trout rehabilitation in this area and 
substantially reduce or eliminate reproduction of Lake Trout and Lake 
Whitefish in Keweenaw Bay. If the stamp sands continue to pollute 
Buffalo Reef and the surrounding area, the Lake Superior Committee's 
ability to achieve its Fish Community Objectives will be compromised, 
and tribal, commercial, and recreational fisheries in the region will 
be eliminated or reduced.
    Sustaining Great Lakes fisheries, and their many economic and 
societal benefits, is an important consideration of the CLC. As such, 
the CLC greatly appreciates the EPA's willingness to support a long 
term solution to the stamp sands problem. Please do not hesitate to 
contact Dr. John Dettmers (Great Lakes Fishery Commission, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="711b151405051c14030231161d17125f1e0316">[email&#160;protected]</a>) if you have any questions or would like additional 
information.
            Sincerely,
                                               Brian Locke,
                                                             Chair,
                                            Council of Lake Committees.

xc:
Kevin O'Donnell, U.S. EPA Focus Area 4
Lori Ann Sherman, Natural Resources Director, Keweenaw Bay Indian 
Community, Buffalo Reef/Stamp Sands Task Force Steering Committee, 
Tribal rep
Anthony (Tony) Friona, U.S. Army Corps of Engineers, Buffalo Reef/Stamp 
Sands Task Force Steering Committee, Federal rep
Steve Casey, Michigan Department of Environmental Quality, Buffalo 
Reef/Stamp Sands Task Force Steering Committee, State rep
Steven Check, Project Manager U.S. Army Corps of Engineers, Detroit 
District Steve Hewett, Lake Superior Committee
Phil Schneeberger, Lake Superior Committee
Jim Dexter, MDNR Fisheries Division
Bob Lambe, Great Lakes Fishery Commission

    Senator Peters. Thank you, Mr. Chairman.
    President Swartz, before we get into some of the details of 
stamp sands, we have heard some pretty compelling stories from 
our friends in Alaska on the cultural significance of whale 
hunting in those communities. I know that your tribe has a long 
history, as well as all the tribes around the Great Lakes. It 
is part of who you are as a people.
    Could you describe the impact of having treaty-granted 
fishing rights and why it is important to protect these 
treaties for the future?
    Mr. Swartz. That is a very good question, Senator Peters. I 
appreciate the question.
    You are right. We did sit down in your office. We had a 
conversation about treaty rights and what they mean to people 
like me.
    I really did not know we had treaty rights. When I was 
growing up, I always assumed that everybody had the right to go 
out and fish. I was one of those that went out with my 
grandfather and set fishing nets for subsistence. I mean, that 
is what we ate. So my grandfather would take me out, and we 
would row the boat. My job was to row the boat.
    We would always do it at night after the sun went down. And 
then in the morning, we would pick it up. He would pick up the 
nets in the morning, because I would have to go to school.
    For many years, that is just the way it went. Then I found 
out, later on in life, that you really could not do that, so 
the Keweenaw Bay Indian Community had to fight for those treaty 
rights, and they were granted sometime in the early 1970s.
    Then my grandpa said, ``Well, Chris, we no longer have to 
set our nets in the dark or pick them up in the dark anymore. 
It is legal to do this.'' So he picked me up, and it was 
sunlight. In the morning, we went to pick these nets up. I 
said, ``Holy smokes, grandpa. Look at all the fish we got in 
these nets.'' He paid me a dollar a day, a dollar a day to row 
the boat. I said, ``Well, that has to change.'' So I asked for 
a raise, and he gave me the raise.
    But getting back to it, my tribe has always been dependent 
on the fish that are in Lake Superior. We are a fishing tribe, 
and we have always been dependent on those abilities to eat 
those fish.
    It is really important to us. I mean, it is getting worse 
and worse, to protect those rights, because of the stamp sands 
issues that are encroaching on those spawning reefs. So I hope 
that answered your question.
    Senator Peters. It did. It is obviously why it is so 
important that we respect these rights.
    You brought up stamp sands again, which is a critical issue 
for us up in the UP and for Lake Superior. I know the Keweenaw 
Bay Indian Community, along with the Great Lakes Indian Fish 
and Wildlife Commission, and the Chippewa Ottawa Resource 
Authority, have all been instrumental. All of you have been 
instrumental in raising awareness of the stamp sands issue, and 
advocating that the EPA take steps to remediate the impact of 
the sands on the Buffalo Reef.
    So the question I have is, how long have you been 
advocating for this? My understanding is it has been a long 
time. Why has it taken so long to make this the priority that 
it should be?
    Mr. Swartz. That is a good question. I do not know why it 
has taken so long, but I know we have been working since 2005 
with the Great Lakes Indian Fish and Wildlife Commission in 
mapping some of those stamp sands that were coming along.
    More recently, we have been working along with our 
partners, including the MDEQ, the Great Lakes Indian Fish and 
Wildlife, and others to address those stamp sands issues.
    I get carried away sometimes, so what was the question 
again?
    Senator Peters. How long have you been advocating? And why 
do you think it has taken so long, because you have already 
mentioned it has been many years.
    Mr. Swartz. Yes, it has been since 2005. More recently, we 
have seen some efforts moving forward to clean that up. Working 
with our partners, hopefully, we can come up with a long-term 
solution rather than a short-term solution, because a long-term 
solution would be a win-win situation for everybody involved in 
the fisheries.
    Senator Peters. Thank you.
    Mr. Swartz. You are welcome.
    Senator Sullivan. We are going to do another round of 
questions, if that is OK with the witnesses.
    Let me follow up, President Swartz. Can you explain what 
exactly the treaty stated? Or what was the focus of the treaty, 
in terms of your fishing rights with regard to your tribe and 
the United States Government? And do you believe that the 
treaty is being adhered to?
    Mr. Swartz. I was never taught this in school, for 
starters, so I had to learn about treaties through the elders. 
The elders tell me the reason the treaties are so important to 
us is because we used to have a lot of land, and a lot of that 
land was taken away in exchange for reserved treaty rights and 
the right to exercise the ability to hunt, fish, and gather on 
our native lands.
    We take treaty rights very responsibly up there. Not only 
do we recognize that we have the right to take some of these 
resources, but we have to do it in a way that respects the 
resource. You do not just take and take and take. I mean, you 
have to take it in a way that respects the resource and 
reserves it for the next 7 generations.
    The Keweenaw Bay Indian Community and all the other Indian 
tribes that I have been in touch with, I think that is their 
main focus. It is, how do we exercise our treaty rights but at 
the same time reserve those resources for the next seven 
generations?
    Because it is not like, Mr. Chairman, once the resources 
are gone, I can pick up and move, because the reservation was 
reserved for us for eternity. Once the resources around my 
reservation are gone, it is going to have an impact on my 
people.
    So it is really important to me and other tribes that we 
respect those resources in a manner that preserves them for the 
next seven generations. I hope that answers your question.
    Senator Sullivan. It is a great answer.
    Let me ask Dr. Suydam, I am very interested in more of the 
details on cooperation between the management and scientific 
research regarding the bowhead harvest. It is conducted 
cooperatively with the AEWC, the North Slope Borough, and NOAA. 
Can you provide the Committee with an explanation of this 
relationship, how well it is working?
    And then after that answer, I would welcome really all 
three of the Alaskan witnesses to talk a little bit more about 
this issue of traditional knowledge. Sometimes we hear it here 
in the Congress, but to be perfectly honest, not many Members 
know what it even means.
    So, Dr. Suydam, if you can talk about that relationship? 
And then, Mr. Mayor, Mr. Chairman, any other input on this 
issue of traditional knowledge and how that has really had an 
impact on creating a much more accurate survey of whales?
    Dr. Suydam. Mr. Chairman, thank you very much for the 
question.
    As you know, NOAA has the legal responsibility for managing 
bowheads. But the Inuit of northern and western Alaska have 
been using and managing bowheads for millennia. So really, they 
are in a better position to manage bowheads.
    The relationship, though, between the three organizations 
that you mentioned, the AEWC, the North Slope Borough, and 
NOAA, is really good at the moment and has been for a couple 
years. We work really well together at the IWC, presenting the 
science, presenting traditional knowledge to the Commission. 
But we also work really well together in collecting science and 
funding the science.
    Some funding comes from NOAA. The majority comes from the 
North Slope Borough through the guidance of Mayor Brower.
    So with that collaboration, we are able to collect 
information that is needed to make informed decisions. So we 
interact on a regular basis on all aspects of the science and 
management. The North Slope Borough has the primary 
responsibility of collecting the ice-base census, so we have 
scientists stand out on the ice edge and count whales as they 
go by.
    We also listen to them. We will talk more about that here, 
I think, in a second, with the traditional knowledge component.
    But the Borough conducts that survey, whereas NOAA is more 
involved in some aerial surveys and photo ID work that 
sometimes is used for population estimates as well.
    But the bottom line is we work really well together. There 
is really good communication and collaboration and cooperation.
    Senator Sullivan. I am glad to hear that. As you know, this 
Committee has oversight responsibilities with regard to NOAA, 
so if the cooperation is not going well, you should please 
inform us, and we will make sure that that changes. But right 
now, I am glad to hear that.
    I want to be respectful of Senator Peters' time. I will do 
one more round of questions. I am over my 5-minute limit. Then 
we can get back to the question I had asked on traditional 
knowledge.
    But, Senator Peters, do you have another round?
    Senator Peters. Well, I will do a follow-up question on 
whale hunting, which I found absolutely fascinating. We do not 
do a lot of that in Michigan.
    [Laughter.]
    Senator Peters. So this has been a great topic, and I am 
certainly fascinated by the community aspects of it.
    Mr. Hopson, I am just curious, you talked about the sharing 
of the food that comes out from the whale. How many pounds of 
food are you talking about? Maybe tell me a little bit more 
about the process. How long does it take, from beginning to 
end, from the kill to the processing? This seems to be an 
incredibly involved undertaking with lots of people and huge 
benefits for subsistence. If you can just go through that, that 
would be great.
    Mr. Hopson. Thank you, Mr. Chairman. And thank you, 
Senator, for the question.
    Whale is averaged to about a ton a foot. So if a 30-foot 
whale is landed, you are looking at 30 tons, which is about 
60,000 pounds.
    The community comes together and hauls it on top of the 
ice. The men will cut it up--men, women, and children will cut 
it up and section them out and divide them equally.
    In our community, we have approximately 140 households. We 
have about 550 people. In our fall hunt, we are capable of 
dividing that whale into 140 pieces, 140 shares, and the people 
take home equal amounts, so that it is shared among the whole 
community freely.
    When we do our spring hunt and we are successful, we also 
have what we call a Nalukataq, a blanket toss festival, a 
whaling festival. That involves a big feast of the community.
    In my community, we come to our recreational ballfield 
area. The whole community will come together, and the 
successful whaling crew will feed the people. There are a lot 
of other parts to it where you have eider ducks and geese soup. 
And they distribute a portion of the whale to the community. 
Then after that, we have a blanket toss festival and an Eskimo 
dance.
    But it is all about sharing and survival, and making sure 
that everybody gets an equal share of that whale. It does not 
matter who you are, what your last name is. Everybody is 
invited to the feasting grounds and given an equal share.
    Senator Peters. What a wonderful tradition. Thank you for 
sharing that with me. I appreciate it.
    Mr. Hopson. Thank you, Senator.
    Senator Peters. President Swartz, we have talked about 
developing a long-term strategy to deal with the stamp sands 
issue, which you have been discussing at this hearing. I know 
that there is a task force that is being formed. We have State, 
Federal, and tribal government representatives all part of that 
Task Force.
    Could you explain to the Committee what role the tribes 
will be playing in this process? How do you see your 
involvement in it?
    Mr. Swartz. That is a good question, Senator. Hopefully the 
role, like we have been talking, is incorporating traditional 
economic knowledge into this, tech knowledge. That role that 
the tribes play in it would be essential in being able to 
identify some solutions and problems or solutions from a tech 
point of view. We can incorporate into both solutions and 
problems that incorporate those tech issues.
    So I was hoping that the native tribes would have an 
opportunity in this task force to incorporate a native 
perspective into how to move forward in addressing the stamp 
sands issue up at the Buffalo Reef. I think we are working 
closely with the Michigan Department of Environmental Quality 
and our Federal partner. I really do not know who our Federal 
partner is. Oh, yes, the Army Corps.
    I think that task force has just been created. And our DNR, 
our environmental people, are part of that task force.
    Senator Peters. Great. Just one final question, Mr. 
Chairman, is that in order to accomplish this, we need 
resources. I am sure you are well aware of the Great Lakes 
Restoration Initiative. That funding helps clean up toxic sites 
around the Great Lakes and abandoned industrial sites. As a 
result of that, it has Federal funding. It has come under 
attack at times, although we have always been able to restore 
that funding for the Great Lakes, and we will continue to do 
that.
    Perhaps you can elaborate on how that funding is so 
critical for this project. As well, I know you are involved in 
other projects related to lake trout as well. If that Great 
Lakes restoration funding was not available, what sort of 
impact would that have?
    Mr. Swartz. It would have a detrimental impact on the 
reservation, because that funding helps us provide capacity in 
some of the things that we are doing and that we are 
monitoring. The funding helps not only monitor the stamp sands 
issues but there are other things that affect the Great Lakes 
also. That money would help us continue to have the needed 
capacity.
    One of the goals that we are looking for is coming up with 
a way to regulate not only some of the air but the water 
quality standards that are on or near the reservation. Some of 
this funding may help with coming up with some solutions to the 
problem.
    Senator Peters. Thank you.
    Mr. Swartz. You are welcome.
    Senator Sullivan. Thank you. I am going to do one more 
round of questions. I very much appreciate everybody's patience 
here, particularly Senator Peters, who has been a great partner 
on this Committee with me. I think he has a pretty busy 
schedule here, so if he can stay or has to leave, I want to 
thank him again very much for his focus and great questions for 
both of the witnesses.
    Gentlemen, I wanted to go back to this issue of traditional 
knowledge. Dr. Suydam, you touched on it. I would really like 
to hear from Mayor Brower and Chairman Hopson, particularly 
this issue of what it is, but also, in some ways, how accurate, 
particularly in terms of the bowhead whale and other counts 
that we have done on the North Slope that in some ways have 
been more accurate than the Western scientific method, and 
bringing them together, how important that is.
    So can either of you two elaborate on that, what it is and 
then how important it is to the community? And maybe even some 
stories about what our traditional knowledge in Alaska was able 
to impart on others in terms of numbers and data that a lot of 
Western science was missing?
    Mr. Brower. Senator, thank you for the question. The 
traditional knowledge that we identified through our history, 
it is passed on orally, oral communications and everyday 
communication, in terms of what activity that we are involved 
in. We developed communications on resources that we depend on 
for subsistence. Preparing them for food was a family oral 
communication. Children, adults were involved in the handling 
and preparation of the food, storing it for later use.
    These kinds of oral communications over time built up the 
knowledge for children, young adolescents growing up in the 
family setting, passing on observations over time that have 
been gained through experience of making calls on weather 
fronts that are before us, just making observations on a daily 
basis, every couple hours.
    Being out on the ocean is very dangerous in our environment 
in Barrow. Making daily observations of ice accumulation, ice 
ridge building. These kinds of observations you share with the 
immediate family, in terms of what observations were being 
made. They are in a database. A couple weeks--and you share 
these observations, too, your other constituents that are 
hunting with you, your hunting partners, your family, your 
extended family, communicating that information to be careful 
in these areas because we know it is not safe and communicating 
where the safe areas are, where to move. In the event there is 
a situation that arises, this is a safe location for you to be 
at this circumstance.
    So passing on that knowledge of different observations on a 
daily basis, building up that communications to a certain 
extent that traditional knowledge is passed down through oral 
communications and generation to generation, whether it has 
been repeated or not. It means that it has occurred in the 
past, and this is something that you should expect to follow 
through.
    In regard to some of the traditional knowledge in terms of 
the science to the whaling and the moratorium, the Federal 
scientists did not have that communication directly with our 
community whaling captains. They had a lot of knowledge over 
time that had built up from their hunting experiences on an 
annual basis.
    Barrow being strategically located, whales migrate both 
directions, in the spring heading north and in the fall heading 
back southwest. So it was very strategically located, and 
activity of whaling occurred, and the knowledge that was being 
passed on was through observations. Ice conditions, ocean 
currents, wind conditions, these are things that are very 
detrimental to our hunting, if we do not pay attention, making 
these types of observations. Ice and currents moving rapidly in 
the transition zones are very important.
    Having a learning experience with our whaling captains, to 
communicating with them first-hand, visiting them to talk to 
them, questioning them about what it is that we need to know 
before we even get out on the ice. What is it that we should be 
looking for? Who should we be talking to or listen to in the 
event there is an emergency, in terms of the communications 
that occur?
    If somebody says something over the radio, and that person 
does not know these people that are talking, sometimes they do 
not react, right? But if the person is known, and there is a 
situation that arises, and they are being informed over their 
communications radio, then that person makes a decision right 
then and there, ``I am moving.'' Just what that person was 
indicating over the communication system.
    These things are very important to identify in terms of 
scientists communicating with local people to identify with 
conditions, not making their observations to improve their 
research on whaling.
    Senator Sullivan. How about, Chairman Hopson and Mr. Mayor, 
again, you can weigh in, or, Dr. Suydam, how about just on the 
accurate prediction of the number of whales? I mean, I think 
with regard to traditional knowledge, I think in some ways, the 
traditional knowledge is a lot more accurate than some of the 
scientists.
    Isn't that true? Hasn't that been the experience in the 
North Slope region?
    Mr. Hopson. Thank you, Mr. Chairman. Mr. Mayor here has 
lived it, and I have heard the stories as these happened before 
I was old enough to be out there. The scientists had to learn 
from the local whalers on how to count whales. The scientists 
were taught to listen for them as they traveled under the ice.
    Mr. Mayor spoke of it earlier, the fact that the scientists 
came out and decided to do a count, and they only counted what 
they saw. When the ice came in, they went back up. But they did 
not realize and did not know the whales continued to migrate 
under the ice and further out.
    So they were missing a lot of whales in their initial 
count. Working together with them and the local hunters, and 
wanting to make sure this is done right, the elder whalers 
taught these people how to listen for them. So then the program 
was created on acoustics and so on, so now we have an accurate 
count, a more accurate count, to reflect what we currently have 
from the past to today.
    Senator Sullivan. I think that gets back to the point we 
were discussing earlier, why the collaboration between the 
AEWC, the North Slope Borough and NOAA is so, so important.
    Let me ask another question, again for the Alaskans. 
Historically, there has been times when renewal was in jeopardy 
with regard to the IWC. Can you comment on how the reliance on 
the decisions of an international body affect the nutritional 
and cultural well-being of Alaskan Native communities and how 
tentative that is?
    Mr. Mayor, you talked about that in your testimony, but 
just to give this Committee a better understanding of just some 
of the concerns that raises in communities throughout the 
state.
    Mr. Brower. Again, Senator, thank you for the question. 
These are very important discussion points.
    It seems to be a threat to the community in times where the 
decisions that are being made by an international body, that we 
have to come back and try to explain to our hunting 
communities. Sometimes they build up the anxiety because the 
communication is not clear. What does it mean when the IWC does 
not renew our quota? What do we have to do then?
    So we have to come back and try to explain to them there is 
another process that we have to work within our Federal 
Government to have an intersessional meeting to get the IWC to 
make its determination, whether to go or not to go whaling.
    Senator Sullivan. This committee is going to follow that 
very closely. We understand the concerns, the trepidation in 
some ways it brings to thousands of Alaskans.
    We will also be introducing legislation. We want to work 
with the IWC, but it would be a backstop domestically to enable 
these important, sustainable, subsistence hunts to continue. So 
we will look forward to working with all of you on that issue.
    Let me ask, changing the topic a little bit here at the 
end, but I do want to take the opportunity, given your 
expertise, and again I would like to ask this of Dr. Suydam, 
Mayor Brower, and Chairman Hopson, do you think the Marine 
Mammal Protection Act is working well as it relates to 
subsistence opportunities for Alaskan Natives? And are there 
any changes in that law, which is an important law, but also 
has provisions for subsistence hunts for Alaskan Natives? Any 
changes that you would recommend to this Committee, as we also 
take the opportunity to look at that issue?
    Dr. Suydam. Thank you, Mr. Chairman. The Marine Mammal 
Protection Act, of course, is powerful legislation, and it 
provides for lots of opportunities. The exemption the Alaskan 
Natives have for being able to hunt and take marine mammals for 
subsistence is an incredibly important component of that.
    The bowhead whales that we have talked about today have a 
great deal of information about them. We know more about 
bowheads than probably any other certainly whale and maybe any 
other marine mammal in the world. In large part, that is 
because of the collaboration between the scientists and the 
hunters, and integrating those two ways of knowing.
    Unfortunately, with many of the other stocks, there are 
tremendous data gaps. The funding has not been adequate to 
collect data on most of the marine mammal stocks not only in 
Alaska but other places in the U.S. That lack of information 
makes it very difficult to make wise, informed decisions, 
whether it is about hunting or whether it is about commercial 
activity in the ocean or anything else.
    So I think that there are ways that the MMPA could be 
strengthened. Those are some of them. There is always limited 
funding not only for science but also for comanagement 
organizations in Alaska that would benefit tremendously and be 
able to help the government do a better job in managing marine 
mammals, if there were just a little bit more funding 
available.
    Senator Sullivan. Any other thoughts on the Marine Mammal 
Protection Act?
    Listen, I want to give each witness an opportunity. All of 
you have traveled very long distances to come before this 
Committee. Thank you for your outstanding testimony. The 
answers have been very illuminating. I really want to give each 
witness an opportunity to just highlight or make a statement on 
any other points that you want to re-emphasize or points that 
you think we did not cover in this hearing. It is a very 
important hearing.
    If there is anything else you would like us to focus on and 
be aware of before I close the hearing, please let us know. I 
will open that up to all four witnesses.
    Dr. Suydam. Mr. Chairman.
    Senator Sullivan. Dr. Suydam.
    Dr. Suydam. Thank you. Sometimes, regulations and Federal 
regulations in Alaska are pretty rigid, and there is not a lot 
of flexibility there--understandable, but not necessarily very 
acceptable.
    In part, these regulations--I do not know if I want to say 
this, but there are not enough people that work for the 
agencies up there to adequately do the job that is required by 
the law. And that is probably not going to change anytime soon.
    So one way to fix that is to take better advantage of the 
hunters that are out on the land and the sea every day, and 
they have been out there throughout their lives. As Mayor 
Brower talked about, the information that he has received from 
his father and grandfather and uncles, the hunters know more 
about what is happening out there than any scientist does. 
Being able to incorporate hunters and elders into the process 
where regulations might be developed and implemented would 
improve dramatically.
    The agencies cannot do their job because they do not have 
the resources to do it. So if we are going to conserve marine 
mammal stocks, and we are going to provide for appropriate 
subsistence opportunities to meet needs, this collaboration and 
cooperation needs to be strengthened tremendously.
    I think it would help the Federal Government do its job. It 
would certainly reduce stresses in the communities. When the 
communities are involved in day-to-day decisions and 
management, things go much, much better.
    Senator Sullivan. That is a great point, and we will 
certainly look at that. Thank you.
    Any other comments? Chairman Hopson.
    Mr. Hopson. Thank you, Mr. Chairman, for the opportunity.
    First, I just want to note that the MMPA is outdated and 
needs more emphasis on comanagement when updating it.
    But I do want to stress the fact that we are not looking to 
get out of the IWC. We are only doing this to protect our hunt 
and our people from basically extinction.
    I do want the Chairman to know, and your committee to know, 
that AEWC, the U.S. delegation, and NOAA have a wonderful 
working relationship, and we are very pleased and happy.
    Thank you.
    Senator Sullivan. Thank you for that.
    Mr. Mayor.
    Mr. Brower. Just in closing, Mr. Chairman, thank you for 
the opportunity, again, to be here and give testimony to your 
Committee.
    I think I am in support of what Dr. Suydam and Chairman 
Hopson is indicating. I think the collaboration that we built 
and working relationships for our communities is very 
outstanding. I think we would like to see this continue moving 
forward. Thank you.
    Senator Sullivan. Great. Thank you. Thank you all.
    President Swartz.
    Mr. Swartz. Thank you, Chairman Sullivan, again, for giving 
us the opportunity to be here before you today and address some 
of the concerns and issues we had. I do not really have a whole 
lot in concluding, but I just wanted to touch on a little bit 
about the objective of the task force that we had talked about 
earlier with our co-partners.
    The objective is to explore long-term solutions to the 
problem, as well as identify costs and possible funding 
sources.
    What I did not mention earlier is, fortunately, these stamp 
sands may have a beneficial use. Some companies are potentially 
interested in using them in fabricating shingles. Copper is 
often added to shingles to retard the growth of moss or lichen, 
and the stamp sands already have copper in them.
    This would be a great use for the stamp sands, and there 
may be others. The tribes have a seat on this three-person 
committee, and we will be an equal partner in bringing good 
science and sound policy analysis to the table.
    I appreciate the time again. Thank you, Mr. Chairman.
    Senator Sullivan. Great. That sounds like an idea with a 
lot of potential, so thanks for raising that.
    Again, I want to thank the witnesses. The hearing record 
will remain open for two weeks. During this time, Senators may 
submit additional questions for the record. Upon receipt, the 
witnesses are respectfully requested to submit their written 
answers back to the Committee as soon as they can.
    Again, I want to thank the witnesses for appearing today. A 
very, very productive hearing. This hearing is now adjourned.
    [Whereupon, at 3:45 p.m., the hearing was adjourned.]

                            A P P E N D I X

     Response to Written Question Submitted by Hon. Gary Peters to 
                           Dr. Robert Suydam
    Question. Bowhead Counts: Mr. Suydam, in your written testimony, 
you mention the challenges thinner ice and climate change pose to the 
bowhead whale science program.
    Can you share any of the new approaches and options for counting 
bowheads with these changing conditions?
    Answer. The North Slope Borough, working closely with the Alaska 
Eskimo Whaling Committee (AEWC) and the Barrow Whaling Captains' 
Association, conducts counts of bowheads form the edge of the landfast 
sea ice near Barrow, Alaska. The ice-based counts include two 
components, visual and acoustic. In essence, the estimate of bowhead 
abundance is based on visual observations which are corrected for 
whales that were outside the viewing range by using acoustic 
monitoring. Our long term data set, stretching back to 1978, provides a 
valuable trend estimate of a rapidly growing population.
    To conduct a count, we have our personnel on the ice for 24 hours a 
day unless unsafe conditions cause them to retreat to land or back from 
the lead edge. There are inherent dangers in working and spending long 
periods of time on the sea ice. The ice can break off casting our 
counters and the hunters adrift or the ice can buckle and rapidly form 
ridges also putting our counters at risk. We used to camp on the ice 
but as climate change has caused the sea ice to thin and become less 
stable and predictable, we now commute from land to the counting site. 
Personnel now remain on the ice for 10 to 12 hours before returning to 
land. Our last successful count occurred in 2011 but we have not even 
attempted a count since then because of dramatically unsafe, unstable, 
and unsuitable ice conditions.
    In addition to modifying our ice-based count to deal with changing 
sea ice conditions, we are also evaluating other techniques for 
estimating the population size of bowheads. These approaches include 
photo identification sight/resight, aerial line transect, and possibly 
a newly developing genetic technique.
    We have previously estimated the population size of bowheads using 
the photo identification technique. This approach involves aerial 
surveys that take photographs of whales as they surface. Bowheads are 
black but have some white patches and scars heal white. The pattern of 
white patches and scars allows us to identify some individual whales in 
one year and then re-sight them in future years. Obtaining enough 
photographs of whales, including enough re-sighted animals over several 
years allows us to estimate the size of the whale population. In 2011, 
we successfully conducted both an ice-based count and an aerial 
photographic survey in the event that we had to transition to using 
only the photographic surveys in the future. By conducting both 
approaches in the same year we made it easier to directly compare 
population estimates from ice-based and photographic surveys to 
estimate population trend. Unfortunately, there are several downsides 
to aerial surveys: (1) they put observers at risk when flying over ice 
and water in the Arctic, (2) tend to be quite expensive (3) and 
matching photographs across numerous years is very time-consuming and 
costly.
    Therefore we have recently begun to consider other options for 
counting bowheads. The National Marine Fisheries Service (NMFS), with 
funding from the Bureau of Ocean Energy Management (BOEM), has been 
flying aerial surveys over the Beaufort Sea since 1979. In 2016 and 
2017, those surveys spotted thousands of bowhead whales over a few 
short days in late August. We have been working with NMFS and BOEM to 
investigate whether a slight modification of the surveys might provide 
us with estimates that are good enough for monitoring the bowhead 
population.
    Finally, genetic analyses have advanced tremendously in the past 5 
to 10 years. It is now feasible to analyze many samples in a short 
period of time and at relatively minor expense. A new approach for 
analyzing genetic data may provide a means for estimating population 
size based on the number of ``close kin'' that are identified in the 
sample. If this approach proves to be usable, we could collect skin 
samples from harvested whales and skin biopsy samples from living 
whales for use in this close kin analysis.
    In 2019, we plan to conduct an ice-based count. We hope that ice 
conditions will allow us to count bowheads as they migrate past Barrow 
during spring. In the meantime, we will pursue improvements in other 
counting techniques as the Arctic sea ice continues to thin. We fully 
expect that we will be able to continue to provide bowhead population 
data to the IWC, the NMFS, and the Alaska Eskimo Whaling Commission so 
that informed decisions can continue to be made to ensure the 
sustainability of the bowhead harvest.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Gary Peters to 
                              Chris Swartz
    Question 1. Tribal Involvement: The Keweenaw Bay Indian Community, 
along with the Great Lakes Indian Fish and Wildlife Commission and the 
Chippewa Ottawa Resource Authority, have been instrumental in raising 
awareness of this issue and advocating that the EPA take steps to 
remediate the impact of the Gay Sands on the Buffalo Reef.
    What can we do to improve the process and intervene sooner for 
projects that have major ecological significance, like the stamp sands 
being eroded and smothering Buffalo Reef?
    Answer. Increase and improve opportunities to incorporate 
Traditional Ecological Knowledge (``TEK'') into regular data gathering 
and monitoring activities. With respect to Buffalo Reef, tribes, and 
specifically tribal fisher-people, were among the first to call 
attention to a problem with the reef. They began to express concern 
about the health of the reef based on changes they were seeing in the 
health and abundance of the lake trout and whitefish populations in the 
area compared to what they saw in years and generations past. The 
information they provided enabled the Great Lakes Indian Fish and 
Wildlife Commission to obtain a grant from the U.S. EPA's Great Lakes 
National Program Office in 2005 to obtain sonar imaging of the reef. 
This imaging is what showed that stamp sands were beginning to encroach 
on the reef.
    While TEK often seems to be given a wide-berth from those on the 
outside, the way TEK is gathered is comparable to western scientific 
knowledge. It is based on direct observation, hypothesis development 
and testing, and analysis. However, TEK is gathered and passed on over 
many generations, focused on narrow geographic regions. Such intimate 
place-based knowledge developed over generations of observations can 
provide important, and early, insight into the health of and 
interactions within specific ecosystems

    Question 2. Tribal Involvement: From your perspective, what can be 
done to facilitate the further involvement of tribal communities?
    Answer. There are two very important ways the involvement of tribal 
communities can be facilitated:

  1.  Consistent, sufficient funding that allows tribes to invest in 
        staff that will help them bring good science and policy to the 
        table before any management decisions have been made or actions 
        take place. The Great Lakes Restoration Initiative (``GLRI'') 
        is a good example of how reliable funding can increase 
        participation. The GLRI provides money to tribal and state 
        governments to build their capacity to remain active in Great 
        Lakes protection and restoration activities. In 2010, this GLRI 
        ``capacity'' funding was initially provided for a 5 year cycle. 
        This allowed tribes to develop more holistic Great Lakes 
        programs and hire full-time staff to represent them in multiple 
        interjurisdictional Great Lakes initiatives. Tribes and 
        intertribal agencies took active roles in many of the Annex 
        Subcommittees formed under the 2012 update to the Great Lakes 
        Water Quality Agreement, the Great Lakes Executive Committee, 
        the Work Group of the Binational Program to Restore and Protect 
        the Lake Superior Basin, and the Zero Discharge Demonstration 
        Program. Now on an annual funding cycle, the GLRI capacity 
        funding is not as reliable. This means that tribes are less 
        able to rely on long-term programs and may hesitate to increase 
        their workforce as might be necessary to work on those Great 
        Lakes initiatives of most concern to them.

  2.  Federal agencies must have staff that are trained, in-depth, in 
        tribal issues and treaty rights so that when issues come across 
        their desks that have the potential to impact tribes, they can 
        take the initiative to bring tribes into the loop early in the 
        process. Federal agency staff are often the first to know about 
        suggested changes to policies or regulations, or of a multitude 
        of emerging issues, but often, unless the word ``tribe'' is 
        explicit, these staff do not understand the boundaries of 
        issues of interest to or that might impact tribes. A basic 
        understanding that tribes still exist within this country as 
        sovereign nations and that the Federal government has a nation-
        to-nation relationship with tribes is not sufficient training 
        to ensure tribal interests are represented within these 
        agencies. Each Federal agency must have staff that are trained 
        sufficiently to identify what issues or potential actions have 
        the potential to impact tribes or their treaty rights and how 
        to approach them to bring them in to the loop early enough to 
        have an impact on the decisions being made.

    Question 3. Gay Stamp Sands Task Force: To develop a long-term 
strategy to address this issue, I understand that a Gay Stamp Sands 
Task Force is being formed with state, federal, and tribal governmental 
representatives forming a steering committee.
    Why is this a good example of including tribes and moving towards 
solution to environmental problems?
    Answer. The Gay Stamp Sands Task Force is made up of multiple 
jurisdictions and academia working together to develop a plan and 
undertake actions to work towards a mutually beneficial goal. Tribal 
worldview will be shared to help develop a goal that is beneficial to 
the health and diversity of lake trout and whitefish, and that will 
then have cascading benefits for all interested communities. By 
involving tribes in the beginning, they have a role in developing both 
the goal and the plans and actions necessary to reach that goal.

    Question 4. Gay Stamp Sands Task Force: What will be the goals and 
objectives of the Task Force?
    Answer. The objective of the Task Force is to explore long term 
solutions for protecting the reef from the encroaching stamp sands as 
well as to identify long term solutions for what to do with the stamp 
sands themselves. The Task Force will also work to identify costs and 
possible funding sources.

    Question 5. What types of long-term solutions will they be 
considering?
    Answer. One of the potential solutions involves building a 
revetment, or wall, to contain the sands that remain on the land. This 
would keep those sands from eroding into the water. Although stamp 
sands will continue to need to be dredged from the water in order to 
keep them away from the reef, there may be beneficial uses for the 
stamp sands. Some companies have expressed an interest in using them to 
fabricate shingles. Copper is often added to shingles to retard the 
growth of moss or lichen. The stamp sands already have copper in them. 
While this would be a good use for the stamp sands, there may be 
others.

    Question 6. What will be the role of the tribes throughout this 
process?
    Answer. The Keweenaw Bay Indian Community has agreed to sit on the 
three person steering committee. Other tribes like the Red Cliff and 
Bad River Bands, as well as intertribal agencies, will likely be 
represented on the larger Task Force. They will be equal partners in 
bringing good science, expertise, and sound policy analysis to all 
steps in the planning and implementation processes.

    Question 7. KBIC Stamp Sands Efforts: Cleaning up the Gay Stamp 
Sands and protecting the Buffalo Reef are now in the Lake Superior 
Lakewide Action Management Plan (LAMP), which is an important first 
step. The Keweenaw Bay Indian Community has done much work addressing 
stamp sands issues at other sites around the Keweenaw Peninsula.
    What work has KBIC done in the past to remediate Stamp Sands around 
the Keweenaw Peninsula in the Upper Peninsula of Michigan?
    Answer. Using GLRI funding, KBIC has spent a significant amount of 
time and effort to try to restore Sand Point, an on-reservation area 
that has been contaminated by stamp sands from a mill site 
approximately 4 miles to the north. In 2006, KBIC began remediation of 
Sand Point by installing a 6''-10'' cap of sandy-loam soil over the 
stamp sands across the 33.6 acres of lakeshore, and seeding it with a 
short grass mixture to protect it against erosion. It has been enhanced 
with added soil, seed plots, mound plots, trees, shrubs, boulders and 
additional walking trails. Specific improvements include 228 pounds of 
native seeds planted, representing 56 species; 34 planted seed plots; 
58 planted soil mounds; 442 square yards of beach grass planted; 13,380 
trees and shrubs planted, representing 19 species; the placement of 19 
boulders; the construction of 3,018 feet of a gravel walking trail; a 2 
acre butterfly garden, and a \1/2\ acre meditation garden. While plant 
diversity increased dramatically in just the first growing season, KBIC 
has continued to experiment with different plants and organic matter to 
try to stabilize the movement of the sands.

    Question 8. KBIC Stamp Sands Efforts: What other measures have you 
taken or that you are planning to take to restore Lake Trout to the 
Great Lakes?
    Answer. While the lake trout in Lake Superior have been declared 
``restored'' as of 1996, the key to continued success is to not lose 
what federal, state and tribal partners have worked so hard to gain. 
Buffalo Reef was stocked with 1.6 million lake trout over a 30 year 
period. It currently remains one of the most productive reefs in 
Keweenaw Bay, and KBIC stocks approximately 50,000 lake trout per year 
in an effort to restore some of the smaller spawning reefs in lower 
Keweenaw Bay.
    To maintain the continued success of lake trout in Lake Superior, 
in addition to stamp sand remediation, KBIC and GLIFWC continue to 
undertake sea lamprey control measures--without that, all gains are 
lost. The tribes and states set harvest limits based on population 
assessments for lake trout to ensure sustainability of the populations 
using protocols and targets agreed to by the Lake Superior Technical 
Committee of the Great Lakes Fishery Commission.

    Question 9. KBIC Stamp Sands Efforts: Now that the Buffalo Reef is 
indeed a priority as indicated by its inclusion in the LAMP, does the 
tribe have capacity to address the project? What further resources 
would the tribe need to be a full partner and ensure their place at the 
table?
    Answer. The importance of the GLRI in providing capacity funding 
has been mentioned above. Continued and reliable capacity funding is 
imperative to ensuring tribes have the manpower to be at the table. 
Funding is also necessary for tribes to undertake appropriate research 
or other projects to contribute to the development of long-term 
solutions and ensure that tribal issues and priorities are fully 
explored and addressed.

    Question 10. Lakewide Action Management Plan: President Swartz, it 
is wonderful that Keweenaw Bay Indian Community and Great Lakes Indian 
Fish and Wildlife Commission have been partners in authoring the Lake 
Superior Lakewide Action Management Plan--or LAMP--which recommends 
that we work to remediate the impact of the Gay stamp sands and protect 
the Buffalo Reef.
    Did the EPA help facilitate the KBIC's participation in the 
drafting the LAMP?
    Answer. Yes. KBIC participates in the Lake Superior Partnership 
Work Group (``LSPWG''). The LSPWG was initiated under the Binational 
Program to Protect and Restore the Lake Superior Basin, and has 
expanded its role under the 2012 update to the GLWQA. The LSPWG is 
coordinated by the U.S. EPA's GLNPO and Environment and Climate Change 
Canada, and is made up of representatives from all jurisdictions that 
have management authority over Lake Superior, like Minnesota Pollution 
Control Agency, the Wisconsin Department of Natural Resources, the U.S. 
EPA, the U.S. Fish and Wildlife Service, and many tribes and 
intertribal agencies. KBIC participated in drafting the Lake Superior 
LAMP by virtue of its participation on the LSPWG, work that was 
facilitated by the U.S. EPA.

    Question 11. Lakewide Action Management Plan: Was there funding 
available for that purpose? If so, where did that funding come from?
    Answer. Yes. Tribes and intertribal agencies have used GLRI 
capacity funding to fund participation in the drafting of the LAMP. 
When the GLRI originated, funding came directly to tribes from the EPA, 
but currently the EPA transfers capacity funding (and some project 
funding) for tribes and intertribal agencies to the Bureau of Indian 
Affairs. The Bureau then provides funding to tribes through Pub. L. 93-
638 contracts and compacts. Utilizing 638 compacts and contracts has 
simplified and sped up the receipt of this funding by tribes. They and 
their reporting and tracking processes are well-known to tribes and the 
BIA.

    Question 12. Lakewide Action Management Plan: What role do LAMPs 
serve, and why is that important?
    Answer. Each of the five Great Lakes has a Lakewide Action and 
Management Plan that serves as an action plan to direct activity geared 
towards restoring and protecting the water quality and ecosystem of 
each lake. These LAMPs build upon a wide variety of local, tribal, 
state, provincial (except for Lake Michigan), national, and binational 
experiences, systems, and plans. The LAMP will guide the 
identification, prioritization, and implementation of actions to 
restore and protect the lakes and their ecosystems.
    Based on our experience working with the Lake Superior Partnership 
Work Group on the Lake Superior LAMP, the LAMPs are of unmatched 
importance. They rely on the engagement of all entities with a stake in 
the continued health of the Great Lakes basin, including 
representatives of federal, state, and tribal agencies. These agencies 
then work closely with many non-governmental entities to manage and 
protect their respective portions of the basin and its ecosystems. By 
engaging all stakeholders, the LAMPs operate as a central organizing 
plan; the LAMP ensures efficient use of resources by ensuring efforts 
do not overlap but build on each other and that all stakeholders buy in 
to the activities that will protect and restore each of the lakes and 
its ecosystems. The restoration and protection of the Great Lakes and 
their ecosystems depends on the efforts of everyone.

    Question 13. GLRI Funding: President Swartz, the Great Lakes 
Restoration Initiative--or GLRI--has been important to remediating 
numerous industrial sites and to restoring natural habitats across the 
Great Lakes region.
    Can you elaborate on how GLRI Funding has been used to help protect 
the Buffalo Reef in Grand Traverse Bay and in other areas affected by 
stamp sands in the Keweenaw Peninsula?
    Answer. A number of funding sources have been used on the Buffalo 
Reef project, including the GLRI. The Army Corps of Engineer's Great 
Lakes Fishery and Ecosystem Restoration (``GLFER'') program funded a 
feasibility assessment that evaluated options to stop the further 
encroachment of stamp sands, however, the 2017 dredging in the Grand 
Traverse Harbor was funded through GLRI, and further dredging in 2018 
will be funded through the GLRI. In addition, KBIC and GLIFWC staff 
time to work on this project was paid for with GLRI capacity funding. 
Finally, the KBIC's project to restore Sand Point (referenced above), 
was completed using GLRI funding.

                                  <all>
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
